                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General


                              Semiannual Report to the Congress
Office of Inspector General


                              April 1, 2004 to September 30, 2004
                           Summary of OIG Accomplishments

Financial Results:
Questioned costs
      Issued during the reporting period                                      $ 3,800,000
      Management decision during the reporting period                         $

Recommendations for funds to be put to better use
      Issued during the reporting period                                      $ 1,800,000
      Management decision during the reporting period                         $ 1,800,000

Investigative recoveries                                                      $134,928

Investigative Results:
Cases opened                                  27
Cases closed                                  17
Judicial actions                              35
Administrative actions                        10
Hotline and complaint activity               244

Reports Issued:                               99




               Pictured on the front cover: Embassy Prague, Czech Republic

                Picture provided by Office of Overseas Buildings Operations




                            Requests for additional copies of this publica-
                            tion should be addressed to:

                                    Office of Inspector General
                                    U.S. Department of State
                                    OIG/ADM, Room 810
                                    1700 North Moore Street
                                    Arlington, VA 22209



                                 Department of State Publication 11193
                                       Office of Inspector General
                                       TABLE OF CONTENTS




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
OIG ACTIVITIES RELATED TO IRAQ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

DEPARTMENT OF STATE
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
      Table 2: Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

BROADCASTING BOARD OF GOVERNORS
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 9
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 7
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 9
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 11
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 3
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 115
      Table 2: Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . 116

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004                                  121
                     EXECUTIVE SUMMARY




     During this semiannual reporting period, the Office of Inspector General (OIG) reviewed and
monitored programs, activities, and operations of the Department of State (Department) and
Broadcasting Board of Governors (BBG), considering them in light of, among other factors, OIG’s
strategic goals that support and assist the Department and BBG.




Effectively, Efficiently, and Economically
Advance the Foreign Policy Interests of the
United States

    OIG conducted several inspections, audits, and other reviews regarding the management and
operations of key U.S. foreign policy programs and established an Iraq Coordination Group to provide
oversight as the Department transitioned from the Coalition Provisional Authority to Embassy
Baghdad.

     During this period, OIG issued three reports specifically relevant to Iraq. In response to
congressional interest, OIG issued a factsheet on the Iraqi National Congress Support Foundation,
which indicated that previously reported questioned costs amounting to $2.3 million have not yet been
remitted to the Department. Additionally, OIG assessed the procurement evaluation and award
procedures associated with the Iraqi Police Training Program, a program implemented by the Bureau of
International Narcotics and Law Enforcement Affairs, and OIG examined two contracting actions
amounting to $334 million. Regarding the contracts, OIG concluded that the Department followed
appropriate procurement regulations and procedures and treated all offerors fairly. OIG also reviewed
cashier operations at Embassy Baghdad, due to the high volume of cash to be disbursed, and
determined that internal controls were adequate for start-up, but that Embassy Baghdad should
formalize its cashiering operation and its relationship for services provided by the U.S. Army.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004      1
            OIG also conducted seven inspections at posts in the Middle East and the surrounding region
       including those in Kuwait, Abu Dhabi, Ankara, Doha, Kabul, Muscat, and Nicosia. These posts play a
       major role in U.S. activities in Iraq and in the global war on terrorism. Overall, OIG found these posts
       to be operating well, despite heavy workloads and intense security concerns. For example, Embassy
       Kuwait is the platform for operations and entry to Iraq by Coalition and U.S. troops, contractor
       employees, visitors, and congressional delegations. Despite the volume of visitors and the resulting
       heavy workload, the post is managed well and embassy personnel rate it relatively high. At Embassy
       Kabul, where the mission performance plan (MPP) is managed as a living document, the embassy uses
       military officers to staff its Embassy Interagency Planning Group (EIPG) and has regularly reviewed its
       performance indicators with all units at post, providing progress reports to post management and to the
       Deputies Committee in Washington. The EIPG concept can serve as a model for future emergency
       situations. The embassy and the Bureau of Overseas Buildings Operations (OBO) have worked to
       alleviate primitive living and working conditions and, when major construction projects are completed
       next year, the post will attain a more normal profile.

            Overall, these Middle Eastern posts experienced warranted but rapid growth in staffing and,
       although they coped well with the resulting demands, OIG found that staffing growth was not tightly
       linked to the MPP process and that International Cooperative Administrative Support Services (ICASS)
       was only marginally effective in managing demands for additional staffing. OIG’s work identified
       staffing gaps in the region and recommended appropriate solutions.

            In its inspection of Embassy Khartoum, OIG determined that the post did an effective job of
       advancing U.S. policy in Sudan by alerting Washington to the deteriorating humanitarian crisis and by
       making enormous progress toward reopening a functioning mission. However, OIG determined that
       the embassy’s effectiveness was hampered by the lack of a country desk within the Bureau of African
       Affairs (AF). OIG recommended that AF place Sudan in a geographic directorate and send its executive
       director to the embassy to review additional managerial needs and develop a plan to address them. OIG
       also determined that Embassy Khartoum lacked the skills needed for handling its responsibilities and
       that regional support was insufficient. The Department generally agreed with OIG’s recommendations
       and is taking steps to address them.

            During this reporting period, OIG reviewed the Consular Lookout and Support System (CLASS), a
       sophisticated, real-time, decision-support system used to perform name checks of visa and passport
       applicants and of foreign visitors entering the United States. OIG found that CLASS, which is seen by
       many as the best of the security community’s enterprise systems, can be improved by better
       management of systems development, closer cooperation with other bureaus, and tighter management
       controls.

           Outside of the Middle East, OIG inspected ten U.S. missions in Africa, including those in
       Mbabane, Pretoria, Khartoum, Maseru, Addis Ababa, Asmara, Djibouti, Bangui, N’Djamena, and
       Yaounde. Leadership and staffing issues were major concerns at these posts, and OIG responded with a
       summary report on hardship posts, based on all recent OIG inspections in Africa. Overall, OIG found



2   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
these hardship posts lacked a cadre of qualified American officers at all levels, and many lacked strong
leadership. Exacerbating the problem were overuse of stretch assignments, inadequate supervision,
overwhelming backlogs of work, excessive staff overtime, and low morale. OIG recommended that the
Department reconvene the Hardship Incentives Working Group, to review and recommend ways to
improve staffing at hardship posts, including through use of temporary-duty personnel and retaining
Civil Service personnel who perform well on excursion tours at African hardship posts.

    OIG, over this period, inspected posts within the Bureau of European and Eurasian Affairs
(EUR), including those in Berlin, Frankfurt, Prague, and The Hague. OIG found that Frankfurt’s
Regional Support Center (RSC) is providing outstanding service, particularly in financial and human
resources management. OIG also concluded that EUR’s use of the Foreign Service national (FSN)
Executive Corps should be emulated by all other regional bureaus, and that the Frankfurt RSC should
consolidate functions performed by regional support activities in Paris and Vienna.

     OIG inspected BBG’s operations, including transmitting stations, marketing and program
placement operations, and several foreign Voice of America (VOA) news bureaus. Among the
recommendations arising from the inspections were calls for human resource succession-planning for the
International Broadcasting Bureau in Greece, for recovery of the 16-percent value added tax (VAT) in
Germany since the transmitting station is losing more than $500,000 to VAT annually, and for
consultations with Embassy Djibouti to bring the unexploded ordnance problem at the transmitting
station to the attention of the government of Djibouti.




Adequately Protect the People, Information, and
Facilities under their Control in the United
States and Abroad

     During this period, OIG conducted 17 security inspections and security management reviews, five
compliance follow-up reviews, and three special reviews. Security inspections focus upon protecting
people, facilities, and national security information, whereas security management reviews examine senior
management’s oversight of a security program. The details of these inspections and reviews are
discussed in the classified annex to this report.

    OIG also conducted three special reviews during this period, one regarding the Department’s
implementation of its lock-and-leave policies and procedures and another regarding the architectural and
engineering contractors involved in designing the new compound for Embassy Beijing. A third focused
on how errors came to be part of the 2003 Patterns of Global Terrorism report. OIG found that
improvements are needed at some lock-and-leave posts and that the Department has provided vigorous




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          3
       security oversight for the architectural and engineering firms designing the Beijing embassy compound.
       The work on the 2003 Patterns report, which came at the request of six Senators, found that inaccurate
       and incomplete data and statements were included in the report because of omissions and
       inconsistencies in information provided by the Terrorist Threat Integration Center (TTIC). Additionally,
       OIG concluded that the Coordinator for Counterterrorism needed to provide the appropriate staff for
       analysis and oversight of the report. OIG recommended better coordination between the offices that
       provide and analyze terrorist incident data and that additional personnel analyze this data and oversee
       development of subsequent Patterns reports. The Department agreed with OIG’s recommendations
       and has taken steps to implement them.

            Over the period, OIG Information Technology (IT) staff participated in inspections of 11 overseas
       missions and two domestic bureaus and reviewed the State Messaging and Archive Retrieval Toolset
       (SMART). SMART will replace the Department’s antiquated messaging systems with a single system
       that offers messaging, archiving, and information sharing at the desktop. OIG’s review of Phase I of
       the project found that the Department is making excellent progress and had no recommendations.

            OIG conducted annual evaluations of the Department’s and the BBG’s information security
       program, as mandated by the Federal Information Security Management Act of 2002 (FISMA). OIG
       found that the Department had made significant improvements over the previous year by, for example,
       changing its certification and accreditation process, improving its plans of action and milestones process,
       and developing a Web-based tool for security awareness training. OIG recommended, and the
       Department implemented, the establishment of an information governance structure that will include
       cross-bureau working-level teams.

       OIG’s FISMA review for the BBG found that BBG had also made progress, in this case by reorganizing
       its IT program, defining 24 major systems, and performing risk assessments. OIG also found that
       BBG developed plans of action and milestones for ten of its 24 systems, for quarterly reporting to the
       Office of Management and Budget (OMB). The first FY 2004 quarterly report to OMB under the new
       structure identified 20 information security weaknesses, of which two have been corrected. However,
       OIG remains concerned that BBG’s information security needs management attention.




       Implement the Necessary Financial and Support
       Systems and Controls to meet Legal and
       Operational Requirements

            OIG audited and reviewed the Department’s and BBG’s financial and administrative support
       systems. Among these was a review of the contract for worldwide protective services, including
       protection of the President of Afghanistan and key embassy personnel in Kabul. An audit of the
       contract’s first six months of operations found that 25 of 31 separately funded line-items were
       significantly under- or over-billed. This included the double billing of a rental charge for $55,000. Also


4   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
the contractor’s accounting and billing procedures were unacceptable. OIG’s subsequent review found
this contractor erroneously claimed that all financial and control deficiencies had been corrected.
Moreover, OIG found additional accounting errors including duplicate or erroneous billings amounting
to about $950,000. OIG also found there was a lack of adequate oversight by Department officials.
With OIG’s findings and the contractor’s subsequent review, the total refund due to the Department
was about $1.4 million. The Department has agreed to hire specially trained financial personnel to
monitor the contract.

     OIG also reviewed the unexpended balances for fiscal years 1995 through 2002 of the Diplomatic
Telecommunications Service Program Office (DTS-PO). In doing so, OIG recommended that the
Department review and question the unliquidated obligations of $28.3 million, to determine if they
could be put to better use. OIG also concluded that funding authority might have expired for some of
the $9.5 million in unobligated balances, meaning that some funds may revert to the U.S. Treasury. In
total, OIG questioned about $51 million in the DTS-PO program. To date, $1.8 million has been
recovered.

     OIG also conducted three reviews involving OBO: an evaluation and analysis of the cost/schedule
data for the contract for the design and construction of an embassy compound in Kabul, Afghanistan; a
review of the New Embassy Compound (NEC) Program, and a review of the Management
Compound for Physical Security Upgrades. OIG found that the Kabul embassy compound contract
lacked an incentive for completion on time and within budget. Regarding the NEC Program’s design
and planning phases, OIG determined that OBO’s new fixed-price contract process should reduce
escalating costs and shift the financial risk to the contractor. In its review of the OBO Management
Compound for Physical Security Upgrades, OIG concluded that the Department’s process for identifying
and approving security upgrades requires better communication with the posts needing upgrades.

     Recognizing that one of the Department’s highest priority financial management goals is a fully
integrated, worldwide financial management operation, OIG reviewed the controls in place to minimize
the risks associated with transferring additional financial services from Washington, D.C., to the
Charleston Financial Service Center (CFSC). OIG found that the Department did not have adequate
controls in place to prevent and detect financial errors and irregularities. OIG also found that the
Department’s plans to implement the move were not complete enough for ensuring that critical services
would be continued or that potential lapses in services would be minimized. OIG, however, found no
errors or irregularities caused by the control weaknesses nor did it find significant service reductions.
During the audit, the Department took action to address many of the issues that OIG identified.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          5
       Ensure Accountability and Prevent or Eliminate
       Fraud, Waste, Abuse, and Mismanagement in
       Programs and Operations

            Over the period, OIG pursued several investigations involving theft of government property, false
       claims, employee misconduct, forgery, and embezzlement and was involved in several follow up actions
       resulting from completed investigations.

            One investigation, conducted with the Federal Bureau of Investigation (FBI), responded to the
       theft of $2.7 million in post assignment travel funds by a former FSN employee at Embassy Lusaka,
       Zambia. This investigation resulted in the arrest and indictment of three Zambian nationals. An OIG
       investigator is scheduled to testify in the resulting prosecutions.

            OIG also investigated a Department of Labor employee, who continued to receive a salary from the
       Department for a year after his temporary-duty assignment expired. In June 2004, the employee was
       placed into pre-trial diversion, and agreed to repay the Department $78,616 in salary payments and to
       complete 200 hours of community service.

            During this period, OIG, the FBI, and the Bureau of Diplomatic Security, jointly investigated the
       case of a former embassy management officer and a consular associate, who were suspected of alien
       smuggling and visa fraud. OIG investigated allegations involving voucher fraud by the same employees
       and discovered approximately 13 incidents of voucher fraud. On May 1, 2004, the suspects pleaded
       guilty to charges of alien smuggling and visa fraud and agreed to forfeit $750,000 in assets.




6   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
      CONGRESSIONAL ACTIVITIES AND OUTREACH
Hearings
Hearings

Testimony
     On April 29, 2004, the former Deputy Inspector General testified before the Subcommittee on
Immigration, Border Security, and Claims of the House Judiciary Committee, regarding the Office of
Inspector General’s September 2003 report on the Diversity Visa Program (ISP-CA-03-52). The
testimony outlined the findings and recommendations of the report and the Department’s progress in
implementing its recommendations. The testimony also outlined the need for new legislation.




Congressional Requests
     In response to legislative mandates and requests from Congress, the OIG conducted the following
reviews during this semiannual period:

•   In conjunction with several other federal offices of Inspector General, OIG was a contributor to
    the Interagency Review of Foreign National Access to Export-Controlled Technology in the United States
    (Report No. D-2004-062), issued in April 2004. In addition, OIG issued its own Department of
    State specific report titled Review of Export Controls for Foreign Persons Employed at Companies and
    Universities (AUD/PR-04-24).

•   As mandated by the FISMA, OIG conducted independent assessments of the Department’s and
    the Broadcasting Board of Governors’ compliance in establishing and ensuring effective controls
    over information technology resources. (Report numbers IT-A-04-08 and IT-A-04-07.)

•   In response to interest expressed by several Members of Congress and based on prior work, OIG
    issued a Factsheet on the Iraqi National Congress Support Foundation (AUD/CG-04-41).

•   In response to a joint request by six Senators via the Secretary of State, OIG conducted a
    review into the Department’s process for reporting on Patterns of Global Terrorism, which
    resulted in the report, Review of the Department’s Patterns of Global Terrorism - 2003 Report
    (SIO-S-04-18)

•   Monthly, OIG reports to the Senate Committee on Governmental Affairs regarding financial
    audits related to the Department’s efforts in Iraq.



Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004           7
            Within this semiannual period, the Deputy Inspector General and OIG staff met with staff of the
           CONGRESSIONAL ACTIVITIES AND OUTREACH
       Senate Subcommittees on Commerce, Justice, State and the Judiciary, the House Commerce, Justice,
       State, the Judiciary and Related Agencies, the Senate Foreign Relations Committee, the House
       International Relations Committee, and the Senate Governmental Affairs Committee, House
       Government Reform Committee and the House Intelligence Committee to review and comment on a
       variety of issues regarding the operations and programs of the Department and BBG.

       OIG monitored the following legislation during this assessment period:

       •   H.R. 4754 – The Departments of Commerce, Justice, and State, the Judiciary, and Related
           Agencies Appropriations Act, 2005

       •   H.R. 4818 – The Foreign Operations, Export Financing, and Related Programs Appropriations
           Act, 2005

       •   S. 2144 – The Foreign Affairs Authorization Act, Fiscal Year 2005

       •   H.R. 4613 and S. 2559 The Defense Department Fiscal Year 2005 Appropriations bill, which
           became Public Law 108-287 on August 5, 2004

       •   H.R. 4200 and S. 2400 – The Ronald Reagan National Defense Authorizations Act for Fiscal
           Year 2005

       •   S. 2537 and H.R. 4567 – The Department of Homeland Security Appropriations Act, 2005

       •   S. 2514 – The Global Peacekeeping Operations Initiative Act of 2004




       Outreach/Media Assistance
           The OIG participates in several courses offered by the Foreign Service Institute to inform all newly
       appointed ambassadors, deputy chiefs of mission, new Foreign Service officers, and new Civil Service
       employees regarding the role, mission, and services provided by OIG. In addition, the Inspector
       General or Deputy Inspector General individually briefs all newly appointed ambassadors prior to their
       departure regarding issues specifically related to their assigned embassies.

           During this semiannual reporting period, OIG participated in four Ambassadorial Seminars, four
       Foreign Service Officer Orientations, one Foreign Service National Seminar, three Management Officer’s
       Seminars, two Seminars for Deputy Chiefs of Mission, and two New Civil Service Officer Orientations.

           As part of OIG’s anticorruption outreach and in conjunction with the inspection of the Embassy




8   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Addis Ababa (Ethiopia), the inspection team presented inspection techniques and information on

    CONGRESSIONAL ACTIVITIES AND OUTREACH
OIG’s role and mission during a training session hosted by Ethiopian Audit and Inspection Services.

     In July, the Assistant Inspector General for Inspections and the Acting Assistant Inspector General
for Investigations, the Legislative Advisor, and a Legislative Analyst met with representatives from the
equivalent of Inspector General offices from China and Chile separately to provide information on
OIG’s role and mission, which related to OIG’s anticorruption outreach.

     During this reporting period, OIG responded to media inquiries concerning OIG’s 2001 and 2002
Reviews of the Iraqi National Congress Support Foundation, OIG work conducted in New Delhi, and
the Department’s global terrorism report.




Implementation of the Government
Performance and Results Act and the
President’s Management Agenda
     During this semiannual reporting period, the OIG continued to selectively evaluate Department
and BBG efforts to manage for results by reviewing mission and bureau performance plans for each
mission and bureau inspected, recommending establishment of effective performance measures for
selected programs and operations, and identifying issues, concerns, and improvements related to the
implementation of the President’s Management Agenda (PMA).

     With strong support from senior leadership, the Department has made considerable progress in
addressing its strategic and performance planning challenges. Improved electronic tools for budgeting
and planning have helped the Department streamline development of plans and performance reports,
improve linkage of goals and resources, and moderate some of the burden imposed on bureaus and
overseas missions. The Deputy Secretary reviews bureau performance plans and resource requests,
challenging bureau leaders to account for organizational performance and effectiveness and to address the
recommendations for improvement identified by the Office of Management and Budget, OIG, and the
Government Accountability Office. Information from the Program Assessment Rating Tool
evaluations has been integrated into the Department’s budget planning tool, allowing it to be linked to
goals and resources.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          9
             The Department has also made great strides in the quality and accessibility of its performance
        reporting. Its FY 2003 Performance and Accountability Report received the Association of Government
        Accountants Certificate of Excellence in Accountability Reporting for the third year in a row, and the
        League of American Communications Professionals awarded the report first place in the Government
        Classification and fourth place overall, out of 900 entries. The Department is close to meeting all of the
        criteria for success identified by the President’s Management Initiative to integrate budget and
        performance and is expected to “move to green” in the near future.

            Every post management inspection routinely reviews how the inspected embassy or bureau
        develops and uses its respective Mission Performance Plan (MPP) or Bureau Performance Plan (BPP).
        For example, during this period, OIG reported that:


            •    Embassy Kabul’s (ISP-I-04-35) MPP was a living management tool; and

            •    At Embassy Abu Dhabi, OIG did not find any coordinated planning mecha-
                 nism that would assist the mission and the bureau in rightsizing U.S. Govern-
                 ment representation to the United Arab Emirates (UAE), although the MPP
                 did include resource requests;

            •    Growth at regional support centers in Germany, Thailand, and South Africa
                 has not been well planned, has strained existing resources and management
                 structures, and has required chiefs of mission to make staffing decisions
                 outside their ability to evaluate in a meaningful fashion;

            •    Embassy Athens (ISP-I-04-21A) should undertake a mission-wide assess-
                 ment of its personnel and resource requirements promptly after the con-
                 clusion of the Olympic games, reflecting the diminished demands and
                 changing priorities in the bilateral relationship with Greece;

            •    Embassy Bangkok (ISP-I-04-22A) should conduct a complete assessment o f
                 existing staff levels of all agencies and should initiate NSDD-38 actions to
                 eliminate any position not determined to be critical to accomplishing the
                 mission’s objectives;

            •    The Bureau of Near Eastern Affairs should respond favorably to Embassy
                 Doha’s (ISP-I-04-23A) request for two additional positions; and

            •    The Bureau of East Asian and Pacific Affairs should approve and fill the two
                 World Trade Organization positions Embassy Beijing (ISP-I-04-36A) has
                 requested.




10   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                       OIG ACTIVITIES RELATED TO IRAQ




                                                A major component of OIG’s work will entail
                                                oversight of Department and BBG programs, activities,
                                                and operations in and related to Iraq. To that end, Iraq
                                                coordination staff are stationed in Washington, D.C.
                                                In Iraq, OIG is currently carrying out its oversight
                                                responsibilities primarily through a series of temporary
                                                duty assignments related to specific activities. OIG
                                                expects that these responsibilities will continue at least
            Embassy Baghdad                     through FY 2007.

      During this period, OIG issued three Iraq-related reports: Factsheet on the Iraqi National Congress
Support Foundation (AUD/CG-04-41), Review of the Department of State Procurement Competitions to Support
the Iraqi Police Training Program (AUD/IQO-04-47) and Review of Cashiering Operations at Embassy Baghdad
(AUD/IQO-04-48). These reports are summarized in the Audits section of this report.



Memorandum of Agreement Betweeen the
Inspectors General of the Department of State,
The U.S. Agency for International Development,
The Department of Defense and the Coalition
Provisional Authority
    Consistent with the Emergency Supplemental Appropriations Act for Defense for the
Reconstruction of Iraq and Afghanistan, 2004, P.L. 108-106, The Office of Inspector General of the
Coalition Provisional Authority (CPA) will terminate on December 31, 2004. In June 2004, the
Department of State Office of Inspector General entered into a Memorandum of Agreement with the
Inspectors General of the Coalition Provisional Authority, the U.S. Agency for International
Development and the Department of Defense to proactively prevent fraud and abuse and to ensure the
continued effective conduct and supervision of audits and investigations as provided in the
Supplemental relating to the programs and activities of the CPA and funds from the Iraq Relief and
Reconstruction Fund.


Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004           11
12   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                                   United States Department of State
                                                   and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                                       October 29, 2004

MEMORANDUM

TO:               The Secretary


FROM:             OIG – Cameron R. Hume, Acting


SUBJECT:          Semiannual Report to the Congress, April 1 to September 30, 2004

I am pleased to transmit to you the Office of Inspector General’s Semiannual Report to the
Congress for the period ending September 30, 2004. During this reporting period, OIG reviewed
and monitored programs, activities, and operations of the Department considering them in light of,
among other factors, OIG’s strategic goals that support and assist the Department.

With the Department’s opening of Embassy Baghdad, OIG established a presence in Baghdad and
issued three reports related to activities in Iraq. OIG audited and reviewed the Department’s
financial and administrative systems. Among these audits were a review of the contract for
worldwide protective services, including protection of the President of Afghanistan and key
embassy personnel in Kabul, as well as the review of the controls in place to minimize the risks
associated with transferring additional financial services from Washington, D.C., to the Charleston
Financial Service Center.

In the area of security oversight, OIG conducted 17 security inspections and security management
reviews, five compliance follow-up reviews, and three special reviews. These are summarized in a
classified annex to this report. OIG also conducted three special reviews during this period, one
regarding the Department’s implementation of its lock-and-leave policies and procedures and
another regarding the architectural and engineering contractors involved in designing the new
compound for Embassy Beijing. A third focused on how errors came to be part of the 2003 Patterns
of Global Terrorism report and found that inaccurate and incomplete data and statements were
included in the report because of omissions and inconsistencies in information provided by the
Terrorist Threat Integration Center. OIG recommended better coordination between the offices that
provide and analyze terrorist incident data and that additional personnel analyze this data and
oversee development of subsequent Patterns reports.

Relevant to the Department’s goal of advancing U.S. foreign policy interests, OIG inspections
covered issues of border security, rightsizing, and regionalization. Related to border security, OIG
reviewed the Consular Lookout and Support System (CLASS), a sophisticated, real-time, decision-
support system used to perform name checks of visa and passport applicants and of foreign
visitors entering the United States. OIG found that CLASS, which is seen by many as the best of
the security community’s enterprise systems, can be improved by better management of systems
development, closer cooperation with other bureaus, and tighter management controls.

OIG addressed rightsizing issues at U.S. missions in the Middle East and Africa. In a summary
report on leadership and staffing issues facing hardship posts at U.S. missions in Africa, OIG found
that, to a great extent, these hardship posts lacked qualified American officers and strong
leadership, which resulted in overuse of stretch assignments, inadequate supervision,
overwhelming backlogs of work, excessive staff overtime, and low morale. OIG recommended that
the Department enhance leadership and management training and reconvene the Hardship
Incentives Working Group to oversee progress on staffing hardship posts. OIG also identified
rightsizing issues at Embassies Kuwait, Doha, Muscat, and Abu Dhabi. Staffing increases are
particularly notable in Doha (252 percent growth in seven years), and Abu Dhabi (46 percent
growth in seven years). OIG generally found that staffing increases were warranted by policy
imperatives related to counterterrorism and the war in Iraq. The real-time policy demands of
preparing for the wars in Iraq and Afghanistan moved much faster than the regular MPP resource
process. Tighter linkage between NSDD-38 decisionmaking, the MPP process, and ICASS
resource decisions would assist in managing growth.

In the related issue of regionalization, OIG inspected three of the Department’s four major regional
centers in Germany, Thailand, and South Africa and found that the Department is making
incremental progress in consolidating services at regional support hubs. However, in most cases,
growth at regional hubs has not been well planned and has strained existing resources and
management structures.

OIG investigative work this period included theft of government property, false claims, employee
misconduct, forgery, and embezzlement.

The IG Act requires that you transmit the report to the appropriate committees of the Congress by
November 30, 2004, together with any comments you may wish to make.
                                            SECURITY


     During this period, OIG conducted 17 security oversight inspections and security management
inspections/reviews, five compliance follow-up reviews, and three special reviews – a review of the
Department’s implementation of lock-and-leave policies and procedures, a review of the architectural
and engineering contractors involved in the construction of the new embassy compound at Embassy
Beijing, and a special inquiry concerning the 2003 Patterns of Global Terrorism report.

     With the exception of the 2003 Patterns report, these reports are classified and are summarized in a
separate, classified annex to this report. A complete list of the reports issued during this semiannual
period may be found in Appendix 2 of this report.




Review of the Department’s Patterns of Global
Terrorism – 2003 Report (SIO-S-04-18)

     In response to a joint letter to Secretary of State Colin Powell from six members of the U.S. Senate,
OIG reviewed how inaccurate and incomplete data and statements came to be included in the Patterns of
Global Terrorism – 2003 report, which was released April 29, 2004. Although the Department has overall
responsibility for producing this annual report on international terrorism, the report’s Appendix A –
Chronology of Significant Terrorist Incidents, relies on data adjudicated by an Incident Review Panel that
includes members of the Intelligence Community.

     OIG found that omissions and apparent inconsistencies in the database were due to a number of
factors. The shift of the responsibility for the maintenance of the database of terrorist events from one
organization to another, along with the lack of trained, long-term personnel working in that office, also
probably contributed to the lack of supervison of the database. In addition, the process for assembling
the report at the Department, while differing little from that of previous years, lacked sufficient oversight
and coordination.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004              15
16   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                  INSPECTIONS




     Equal Employment Opportunity Memorandum Report (ISP-I-04-33)

     During FY 2003, several OIG inspections conducted by OIG noted weak-
     nesses in Equal Employment Opportunity (EEO) Programs at overseas
     posts. OIG found that many locally engaged staff were unaware of EEO
     principles or did not believe they applied to them.

     Although OIG made recommendations at each mission to address identified
     shortcomings, OIG believes they are not isolated cases. Based on a review
     of reports that identified EEO issues, OIG recommended that the Depart-
     ment take appropriate steps to ensure that all overseas missions are aware
     of the importance of the Department’s Equal Employment Opportunity
     program and that all mission employees, including locally employed staff, are
     aware of the responsibilities of and protections available to all employees
     with respect to maintaining a proper work environment and ensuring equality
     in the workplace. OIG also recommended that the Department emphasize
     the application of EEO principles to locally employed staff in its training for
     outgoing ambassadors and deputy chiefs of mission, and also for entry-level
     officers, who are often first-line supervisors for locally employed staff.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   17
        African Affairs


                  Strengthening Leadership and Staffing at African
                            Hardship Posts (ISP-I-04-54)

            OIG prepared a summary of leadership and staffing issues facing hardship
            posts based on several OIG inspections of U.S. missions in Africa. OIG
            found a strong relationship among leadership, morale, staffing, and diplo-
            matic readiness at hardship posts. However, recent inspections showed
            that, to a great extent, these posts lacked qualified and interested American
            officers at all levels, and many did not have strong leadership. These
            deficiencies led to costly failures in diplomatic readiness including overuse of
            stretch assignments, inadequate supervision, overwhelming backlogs of
            work, excessive staff overtime, and low morale.

            OIG found with good leadership from the ambassador and deputy chief of
            mission (DCM), hardship posts can be successful, congenial workplaces with
            high morale and can attract qualified staff, even in the most difficult of
            environments. OIG recommended that the Department place stronger
            emphasis on leadership qualities of ambassadors and DCMs, including the
            ability to motivate and encourage staff and to teach subordinates to set
            priorities and be self-reliant. OIG also recommended enhanced leadership
            and management training.

            To address staffing shortcomings, OIG recommended that the Department
            reconvene the Hardship Incentives Working Group to oversee progress on
            staffing hardship posts, implement a formal program for temporary duty
            personnel, and implement procedures to facilitate the retention of Civil
            Service personnel who perform well at African hardship posts, identifying
            ways in which they can continue to function in this role.




18   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Inspection of Embassy Mbabane, Swaziland
(ISP-I-04-25A)
Fieldwork concluded March, 2004

   OIG found Embassy Mbabane adequately staffed but suffering from weak management. The
embassy was lacking standard policies and important management controls.

     The return of the Peace Corps had significantly enhanced U.S. engagement, and the United States
was the leading bilateral donor for HIV/AIDS programs. Consular responsibilities at Embassy
Mbabane were light, and OIG recommended that all visa functions be transferred to Consulate General
Johannesburg.

         i




Inspection of Embassy Pretoria, South Africa,
and Constituent Posts (ISP-I-04-28A)
Fieldwork concluded March 2004

     South Africa is a management challenge marked by dramatic mission growth over the past decade as
well as the increased workload to advance key U.S. priorities such as HIV/AIDS, democracy, and regional
stability.

     Over the past ten years, the size of the mission skyrocketed, with 28 agencies represented at the time
of the inspection. Building programs were underway or planned in three locations, but key elements of
the management/administrative platform remain seriously underinvested. Proposals to expand
Pretoria/Johannesburg as a regional support hub require greater analysis and coordination with the
Bureau of Overseas Buildings Operations.

     The mission had achieved notable success in priority areas such as HIV/AIDS, especially with the
effective engagement of nongovernmental organizations and improving law enforcement coordination.
General regional support and handling a constant stream of official visitors also received strong marks.
Washington consumers were generally satisfied with political and economic reporting. Public diplomacy
efforts had been effective and were growing.

    The mission’s success in advancing its substantive agenda had not been fully mirrored in internal
operations. This mission had communication and coordination problems and a lack of cohesiveness.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004            19
             Consular officers had kept pace with rapidly changing requirements and were observing necessary
        management controls. OIG recommended that a nationwide system be implemented for visa inquiries
        to reduce workload and improve public relations. Weak management was a concern in several embassy
        sections, especially human resources activities.

             The three consulates general posed unique challenges. Johannesburg was well managed, but its
        proximity to Pretoria presented coordination and turf issues. Cape Town had excellent outreach and
        contact efforts but serious administrative weaknesses that may require an upgrade in management
        personnel. Durban, the epicenter of South Africa’s AIDS pandemic, produced good reporting on this
        issue, but key officers demonstrated poor people-management skills.




        Inspection of Embassy Maseru, Kingdom of
        Lesotho (ISP-I-04-32)
        Fieldwork concluded February 2004

             Embassy Maseru, one of the smallest U.S. embassies, was working hard to advance U.S. interests in
        this country of two million people. During the inspection, a key issue facing the embassy was how
        small can a post be and still effectively cover such essential areas as security and information management.

             Security coverage, provided by Embassy Gaborone at the time of the inspection, should come from
        South Africa and needed to be enhanced. Information management support, which was inadequate,
        must be improved to meet post’s needs. Embassy Maseru had sought the assignment of a regional
        security officer and an information management specialist. OIG supported these requests, absent
        significant increases in regional support.

             Consular responsibilities were light, and OIG recommended that all remaining visa functions be
        transferred to Consulate General Johannesburg. Insufficient communication among staff had hindered
        morale. Administrative operations needed to be tightened and receive greater oversight from the front
        office. Embassy Maseru had insufficient management controls in warehousing and expendable supplies,
        procurement, and the clearing of funds that have been obligated but not spent.




20   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Inspection of Embassy Addis Ababa, Ethiopia
(ISP-I-04-42A)
Fieldwork concluded June 2004

    OIG found that Embassy Addis Ababa has successfully worked to gain the Ethiopian
government’s cooperation in meeting three of the major U.S. foreign policy objectives for Africa: to
maintain peace in the volatile Horn of Africa, to win the war against terrorists who find haven in the
Horn, and to make inroads in redressing food insecurity and HIV/AIDS in Ethiopia. The embassy
now should explore ways in which the African Union, which has its headquarters in Addis, could be
drawn on to advance U.S. interests Africa-wide.

     The inspection also identified some morale issues, and management controls need attention. The
consular staff accomplishes a daunting array of tasks but would benefit from more focused office
management, an improved filing system, and accelerated handling of correspondence. Embassy Addis
Ababa does not have a formal, reliable management controls review system. OIG recommended that
the embassy designate the deputy chief of mission as the management controls officer and conduct an
embassy-wide management controls review.




Inspection of Embassy Asmara, Eritrea
(ISP-I-04-43A)
Fieldwork concluded May 2004

     U.S. bilateral relations with Eritrea are strained, and Eritrean cooperation is limited and patchy. OIG
found that Embassy Asmara is poised to respond promptly should the situation improve. Given
Eritrea’s location in the Horn of Africa, near the U.S. military base in Djibouti, Eritrea’s cooperation in
policing coastal waters could be very useful in the war on terrorism.

      OIG found that Embassy Asmara will be essentially rightsized following the addition of a new
consular officer. However, OIG did identify staffing issues. The Department’s inability to provide
continuity in staffing is at variance with the mission’s growing strategic-military importance. Also,
staffing gaps need better coverage through longer stays by temporarily assigned officers or when-actually-
employed annuitants. Finally, constant turnover in the management officer position has adversely
affected operations.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004             21
             U.S. bilateral assistance, even if declining in some areas with budget reductions, has achieved
        significant development results. Similarly, the mission’s public diplomacy unit has been creative in
        seeking opportunities to expand its programs.




        Inspection of Embassy Djibouti, Republic of
        Djibouti (ISP-I-04-44A)
        Fieldwork concluded May 2004

             The abrupt emergence of Djibouti as a forward base for the United States in the global war on
        terrorism has raised significant challenges that the embassy is successfully meeting. Embassy Djibouti is
        important largely because the United States has established its only military base in Africa in Djibouti.
        The embassy has achieved commendable results in creating positive relations among the embassy, the
        U.S. military, the French, and the government of Djibouti to facilitate the work of the base.



             Embassy support has been crucial in enabling the U.S. Agency for International Development and
        the Department of Defense to commit over $50 million in development and military funds quickly,
        helping to maintain continued acceptance by Djiboutians that their decision to allow the base was the
        right one.

            Embassy Djibouti has managed to cope with a number of management and personnel challenges.
        OIG made recommendations to address human resources issues for direct-hire American and Foreign
        Service national staff.




        Inspection of Embassy Khartoum, Sudan (ISP-I-04-46A)
        Fieldwork concluded May 2004

              Embassy Khartoum is effective in advancing the U.S. policy agenda in Sudan. It took the lead in
        alerting Washington to the deteriorating humanitarian crisis in Darfur in western Sudan. In addition,
        the embassy has made enormous progress in reopening as a functioning mission in Khartoum in order
        to reestablish more productive relations with the government of Sudan and further U.S.
        counterterrorism and humanitarian priorities.




22   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
     The inspection found that skills are not commensurate with the enormous tasks facing the
embassy, and regional support, spread among several neighboring African posts, is insufficient to fill the
gaps. OIG recommended that Embassy Khartoum request temporary duty officers to help meet needs
in the areas of management, public affairs, facilities, and human resources. OIG also recommended that
Embassy Khartoum complete memoranda of understanding with neighboring embassies to provide
regional support for facilities maintenance, human resources, and financial management. In addition,
OIG recommended that the embassy recruit a midlevel consular officer and an entry-level officer to
perform American citizens services and political reporting duties. OIG also found morale issues and
made a recommendation to address them




Management Assessment Review of Embassy
Bangui, Central African Republic (ISP-I-04-48)
Fieldwork concluded June 2004

      Since the withdrawal of American staff from the Central African Republic in November 2002
during a breakdown in security, U.S. interests have received little attention. OIG found that the U.S.
facilities in Bangui are deteriorating, notwithstanding annual expenditures of almost $2 million.
Responsibility for oversight of embassy activities is split among the Bureau of African Affairs, Embassy
N’Djamena, and Embassy Yaoundé. OIG found little apparent thought given to policy and
management issues.

      Foreign Service nationals are responsible for the U.S. facilities and for the local conduct of bilateral
relations. Little attention is paid to the upkeep and maintenance of the deteriorating real property, and
the FSNs communicate as best they can with personnel in the Bureau of African Affairs.

     OIG recommended that the Department decide the status of the mission and take immediate steps
to oversee U.S. government interests, personnel, and property in Bangui, including establishing clear
policy and management guidelines, consolidating support functions at one location, and accrediting the
U.S. ambassador from a nearby location to the Central African Republic. OIG also made several
recommendations to improve general services and recommended that the bureau provide FSNs clear
written guidance.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004               23
        Inspection of Embassy N’Djamena, Chad
        (ISP-I-04-49A)
        Fieldwork concluded May 2004

             OIG’s inspection of Embassy N’Djamena found that recent personnel changes, petroleum
        production, and counterterrorism successes, coupled with the urgency of supporting humanitarian
        efforts in the east, have given needed life and meaning to Embassy N’Djamena. Before then, the
        embassy focused primarily on the need to survive in Chad’s harsh environment. However, OIG found
        that the embassy has a noticeable lack of direction that negatively affects performance and morale and
        noted that a new Ambassador must continue the work of a temporary duty chargé, who helped to
        energize the post.

             Historically difficult to staff, Embassy N’Djamena has had difficulty attracting the expertise it needs
        to fulfill its objectives and provide a reasonable quality of life for embassy personnel. AF has assigned
        temporary duty personnel, but they are unable to give the embassy the continuity and sustained direction
        it needs. There was also a notable lack of supervisory oversight and a need for FSN training in human
        resources, financial management, and information management, and Department assistance is required
        in these three units.




        Inspection of Embassy Yaoundé, Cameroon
        (ISP-I-04-52A)
        Fieldwork concluded June 2004

             OIG found that Embassy Yaoundé is effectively engaged to influence Cameroon in its political and
        economic development and to encourage it to become more conscious of its international role. Public
        diplomacy efforts are appropriately directed. Embassy Yaoundé is also effective in its support for the
        newly opened embassy in Malabo, Equatorial Guinea. The Ambassador delivers hard messages to that
        government on the need to improve its human rights record and develop a more participatory political
        system. However, current disruptions in commercial and charter air service to Malabo seriously constrain

        Embassy Yaoundé’s ability to provide services in a timely and sustained manner. Embassy Yaoundé’s
        role in supporting the embassy in Bangui, Central African Republic, should be formalized with clear
        instructions from the Department on what level of coverage and administrative support is in the
        interests of the United States.




24   Office of Inspector General Semiannual Report to the Congress,        April 1, 2004 to September 30, 2004
     Embassy Yaoundé works as an integrated, well-functioning whole with a good sense of
community and high morale among American direct-hire employees and locally employed staff. The
embassy, in particular the Ambassador, has worked hard and successfully to recruit the personnel it
needs. It benefits from the strong performance of entry-level Foreign Service officers and specialists and
Civil Service employees on excursion tours, who together fill over half of the Department direct-hire
positions in Yaoundé and the branch office in Douala.


     OIG recommended that the embassy improve consular operations through better management.
OIG also made several recommendations to improve procedures for financial management and general
services.




East Asian and Pacific Affairs


Inspection of Embassy Bangkok, Thailand, and
Constituent Post (ISP-I-04-22A)
Fieldwork concluded March 2004

     OIG found that rightsizing was a major issue to be addressed at Embassy Bangkok, one of the
largest U.S. diplomatic presences abroad. There was continuing pressure for further staff increases due to
a congenial host country environment, apparent political stability, ease of transportation/
communications, and reasonable costs of operation. However, the haphazard accretion in staff was not
in accordance with any overall plan.

     Embassy Bangkok is, de facto, a regional center of U.S. government operations. Coverage ranges
from 59 other posts served by the Bangkok Financial Service Center to frequent work with four
neighboring embassies in Burma and what formerly was known as Indo-China. On the interrelated
issues of rightsizing and regionalization, the prevailing attitude was that growth was inevitable.

     The Chief of Mission’s authority applies to the regional offices. Although he was responsible for
the welfare and saftey of many tenant agencies, the Ambassador had no authority or capability to
evaluate the extent or effectiveness of the work of those entities outside Thailand. This rendered the
NSDD-38 process (approval process for permanent hire) moot as a tool for effective management
decisions.




Office of Inspector General Semiannual Report to the Congress,        April 1, 2004 to September 30, 2004    25
             This mission operated in a resource-plentiful environment, both in terms of funding and
        personnel. Thus far, this has enabled Embassy Bangkok to easily meet the administrative support needs
        of the 41 subscribers to the ICASS system.

             Morale at the mission is good, especially at Chiang Mai and among those who work in the Inman-
        standard new chancery. The Ambassador and deputy chief of mission are well respected. Priority
        attention was given to counterterrorism, bilateral military cooperation, and law enforcement issues. In
        these areas, program implementation was very effective. However, the consular staff needed more front
        office attention and recognition.

            In managerial style, this is a mission where a premium is placed on an agreeable community
        atmosphere. The corollary is a certain lack of constructive criticism or debate over either policy or
        management issues. An unusually large number of the American staff has served previously in
        Thailand. There is a subtle, but pervasive, deference to this depth of experience and an inclination to
        accept conventional wisdom in addressing issues.




        Inspection of Bangkok Financial Service Center
        (ISP-I-04-29)
        Fieldwork concluded March 2004
             During its inspection, OIG found the Bangkok Financial Service Center (BFSC) provided
        outstanding customer service. However, implementation of the Regional Financial Management System
        (RFMS) has been costly both financially and in its effect on the personnel of the BFSC. Additional
        Foreign Service national personnel were needed to meet the increased workload demands caused by
        assuming responsibility for 22 additional posts and implementing RFMS. Management controls needed
        to be strengthened both through separation of duties and an independent review of RFMS and its
        associated applications.




        Inspection of Embassy Beijing, China, and
        Constituent Posts (ISP-I-04-36A)
        Fieldwork concluded June 2004

              Embassy Beijing was well focused on U.S. foreign policy and national security priorities in China
        and was accomplishing positive results in fostering a constructive U.S.-Chinese relationship. The
        embassy has more than doubled in size since 1997 to a total American and local staff of about 1,500.
        Additional major staff increases are expected as the U.S.-Chinese relationship continues to expand,
        raising questions whether planned new office buildings and other facilities will be adequate.




26   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
OIG recommended that Embassy Beijing develop a plan to monitor proposed staffing and programs in
China to ensure there is sufficient accommodation for projected growth that may exceed the capacity of
existing facilities and those under construction.




                                       Embassy Beijing




     OIG found that Embassy Beijing was not taking sufficient advantage of the many opportunities
that China offers for public diplomacy and media outreach. A more active public diplomacy posture by
the embassy and the constituent posts is needed to reach new audiences such as youth and to support
China’s English-language teaching programs. The government of China has expanded its educational
exchanges with the United States. OIG recommended that the Bureau of East Asian and Pacific Affairs
engage the government of China on establishing a Fulbright Commission in China.

     The mission’s consular component was performing well, with good morale despite very heavy
workloads, poor working conditions, limited resources, and high levels of visa fraud. This high
performance was a tribute to strong consular leadership and a dedicated and talented group of junior
officers and locally employed staff.

     Management operations were for the most part performed well given the challenges posed by an
extremely large and complex mission with four constituent posts spread over a vast geographical area.
However, there were significant gaps in management controls that need to be addressed.


     The mission’s four constituent posts – Consulates General Shanghai, Guangzhou, Shenyang, and
Chengdu – make a substantial contribution to U.S goals in China through targeted political and
economic reporting, strong trade advocacy, active public diplomacy programs, and effective consular
services. In view of its demonstrated capable management, the mission would benefit by devolving
authority to constituent posts, including contact with the media, selection of their own international
visitor program candidates, and their own post awards program.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004       27
        Near Eastern Affairs


        Inspection of Embassy Abu Dhabi and Consulate
        General Dubai, United Arab Emirates
        (ISP-I-04-19A)
        Fieldwork concluded March 2004

             OIG’s inspection of Embassy Abu Dhabi found it to be effective in the key areas of
        counterterrorism, nonproliferation, and trade promotion. The embassy also advanced key U.S. security
        interests effectively through close coordination with the U.S. military and the government of the United
        Arab Emirates.

              Embassy Abu Dhabi was managing rapid growth of staff. The consular sections in Abu Dhabi
        and Dubai were effective in applying stringent procedures in order to comply with homeland security
        measures. These procedures should be reinforced by mission leadership and respected throughout the
        mission. Public diplomacy efforts were well directed, but OIG found the embassy could be more
        effective once full staffing is achieved. The management section merited high marks for the successful,
        smooth transition to a new embassy compound in January 2004. OIG recommended that attention be
        given to strengthening the operational controls and procedures needed for a mid-size embassy to run
        well.

             Although many employees were highly interested in their work, some staff members felt the
        pressure of a heavy workload and an atmosphere of criticism at the embassy. Locally employed staff
        (LES) was concerned about erosion in the compensation plan, as promised increases, with the exception
        of health benefits, had not materialized. Nevertheless many LES continued to cite the embassy as a
        good employer.




        Inspection of Embassy Doha, Qatar
        (ISP-I-04-23A)
        Fieldwork concluded February 2004

            During its inspection of Embassy Doha, OIG found that management performed well in
        coordinating with the U.S. military presence in Qatar, including the forward headquarters of U.S. Central
        Command. Embassy Doha obtained full support from Qatar for Operation Iraqi Freedom and the war




28   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
on terrorism. U.S. economic interests have grown with the economic boom fueled by the development
of Qatar’s enormous natural gas reserves.

     The embassy had grown appropriately to keep pace with the full bilateral agenda, with some
additional growth anticipated. However, positions were not easy to fill, and the embassy needed to
advertise itself as a good place to work. Housing, schooling, and medical care were good, and the work
interesting.

     Overall the embassy was well managed, and morale was generally good. However, locally employed
staff had concerns about some work environment and benefit issues. Communication on these issues
was underway with embassy management.


     OIG recommended the embassy initiate the steps necessary with the Bureau of Overseas Buildings
Operations for the purchase of the 12.8-acre compound where the chancery is located. At the time of
the inspection, the property was on a short-term lease with rental costs expected to escalate dramatically.
The United States had already made a significant investment in outfitting the chancery and was about to
build a Marine house on the compound.




Inspection of Embassy Kuwait, Kuwait
(ISP-I-04-24A)
Fieldwork concluded February 2004

     Embassy Kuwait plays a major role in supporting U.S. activities in Iraq. Its achievements have
included helping engineer and manage Kuwait’s contribution of 60 percent of its land for use in
Operation Iraqi Freedom and obtaining $2 billion in Kuwaiti support to coalition forces.

     At the time of the inspection, the Ambassador served in Iraq as the Deputy to Ambassador
Bremer at the Coalition Provisional Authority, leaving the deputy chief of mission as chargé in Kuwait.
Kuwait is the platform for operations in Iraq. The embassy worked closely and effectively with the U.S.
troops and thousands of civilian military contractors. Over a quarter of a million coalition troops were
rotating through the country in early 2004.

     Kuwait also serves as the gateway for travelers to Iraq. The embassy staff and its new Iraq Support
Unit worked with the U.S. military’s contract Federal Deployment Center to process employees, visitors,
and congressional delegations transiting to and from the Coalition Provisional Authority and Iraq. At
the time of the inspection, it appeared that security concerns were likely to prevent use of Baghdad
International Airport for commercial flights for at least another one to two years, meaning Embassy




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004            29
        Kuwait may serve as a platform for establishing Embassy Baghdad. However, Department plans were
        unclear, and the issue needed attention.

            The embassy had also done an outstanding job managing regular bilateral relations. In March the
        United States and Kuwait signed a Trade and Investment Framework Agreement. The quantity of
        reporting has decreased with the rise of operational commitments, but its quality has remained high.

            Overall management operations were functioning very well as evidenced by the high scores received
        from embassy personnel on OIG’s workplace and quality of life questionnaire. The current
        management team had begun addressing long-standing compensation plan failings in an effort to
        address morale issues. Bureau of Near Eastern Affairs funding support for this initiative was required.




        Inspection of Embassy Muscat, Oman
        (ISP-I-04-26A)
        Fieldwork concluded March 2004

              Oman is a vital partner in advancing U.S. interests in the Middle East. Its sustained military
        cooperation is critical to the implementation of U.S. operations in the region. The embassy was intent
        on going beyond this excellent military relationship to broaden economic, scientific, and cultural ties. A
        Trade and Investment Framework Agreement was about to be concluded. Oman was expected to be the
        first Arab country to participate in the Smithsonian’s Folklife Festival.

             Although the post had a history of low morale, due in part to staffing gaps in senior embassy
        management, a new embassy team had markedly improved morale and operations. However, several
        personnel and administrative issues still needed attention. OIG recommended that the Department
        assign a temporary duty human resources officer to the embassy to work on the most pressing issues.

             U.S. border security was well served by the consular section, and most management controls were in
        place. Given post-September 11, 2001, security concerns in the region, however, the Department needed
        to ensure that the recently approved mid-level consular position is filled by an experienced consular
        officer.




30   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                       Rightsizing

         Embassies Kuwait, Doha, Muscat, and Abu Dhabi

    Following September 11, 2001, all four of these posts have experienced
    brisk growth in the numbers of American and local hire employees, a transi-
    tion that has not gone entirely smoothly in all cases. Staffing increases are
    particularly notable in Doha (252 percent growth in seven years), and Abu
    Dhabi (46 percent growth in seven years). OIG found that staffing increases
    were warranted by legitimate policy imperatives related to counterterrorism
    and the war in Iraq. Most of the staffing growth supports the bilateral mission
    rather than regional functions that might be located elsewhere.

    Staffing growth at Embassy Abu Dhabi was not tightly linked to the Mission
    Performance Plan (MPP) process, and the ICASS mechanism was only
    marginally effective in managing demands for additional staffing resources.
    The real-time policy demands of preparing for the wars in Iraq and Afghani-
    stan moved much faster than the regular MPP resource process, which
    usually takes several years to produce positions. For example, the war in
    Iraq, the Diplomatic Readiness Initiative, and other agency NSDD-38 re-
    quests move independently of the MPP process and required adjustment of
    staffing levels in ways impossible to predict when the current year MPPs
    were written.

    At Embassy Kuwait, ICASS functioned in a collegial manner that promoted
    open communication flow between management officers and the ICASS
    councils. At Embassy Abu Dhabi, the ICASS council met only sporadically in
    reaction to specific requests, hindering the usefulness of ICASS as a mecha-
    nism for addressing the post’s changing administrative requirements.
    Tighter linkage between NSDD-38 decisionmaking, the MPP process, and
    ICASS resource decisions would assist in managing growth more effectively
    in all posts. One common problem was escalating benefits costs for local
    employees. Because of policy decisions on the part of governments in the
    region to eliminate health insurance and other benefits for noncitizens, LES
    employment costs have escalated rapidly, leading to pressure on ICASS
    budgets. If left unaddressed, these problems could erode the diplomatic
    readiness of our embassies in the region.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   31
        European and Eurasian Affairs


        Inspection of Embassy Ankara, Turkey, and
        Constituent Posts (ISP-I-04-20A)
        Fieldwork concluded March 2004

              During its inspection, OIG found Embassy Ankara engaged with the Turkish government on an
        impressive high priority policy agenda, including Iraq, Cyprus, Afghanistan, Turkish economic reform,
        and counterterrorism. The U.S.-Turkish bilateral relationship was returning to an even keel after a very
        difficult period in 2003 emanating from the March 1, 2003, Turkish decision to refuse U.S. military
        movement through Turkey into Iraq at the outbreak of the conflict.

             The Ambassador provided effective leadership and had a strong supporting cast in key embassy
        sections and the country team. The political-military and economic sections performed well under the
        exceptionally demanding pressures of the Iraq conflict and Turkey’s crisis driven economic reform. The
        public affairs and political sections had also performed well. The consular section was a model
        operation.

             OIG found major management issues facing the embassy, most notably the need for a new
        embassy compound and the need for prompt action to counter the dramatic drop in Foreign Service
        national pay precipitated by the dollar’s decline against the Turkish lira. There were also significant
        problems relating to unwieldy procurement practices, delayed vouchers, and the reception of new
        arrivals. Those problems affected morale and mission efficiency and needed senior level attention. On
        the positive side, OIG found that the management section had done a good job handling the
        construction of a new consulate general in Istanbul; moving Consulate Adana to new, more secure
        quarters; and managing a torrent of senior visitors.

             Consulate General Istanbul is well led and well run as is the small Consulate Adana. The Izmir
        American Presence Post has not justified the investment in resources and personnel and should be
        closed.




32   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Inspection of Embassy Athens, Greece, and
Constituent Post (ISP-I-04-21A)
Fieldwork concluded February 2004

     OIG’s inspection of Embassy Athens found that, reflecting high-level Washington concerns,
security against terrorism at the Olympic games was the embassy’s dominant priority. Embassy Athens
was the driving force and the de facto central U.S. government coordinator for a massive interagency effort,
in conjunction with the Greek government, to create a secure environment for the Athens Games.


     In preparation for the Olympic games, the embassy was burgeoning with every agency adding
personnel, including the Department. There was constant interchange with the highest levels of the
Greek government and the coordination of myriad joint law enforcement, intelligence, and military
preparatory activities. Upon completion of the games, OIG recommended the embassy be prepared to
promptly release all personnel assigned for Olympic support. In the immediate post-Olympic period,
OIG also recommended that the embassy undertake a broad mission-wide reassessment of its policy
priorities and consequent personnel and resource needs.

     The embassy was performing exceptionally in meeting the challenges it faced. Overall, morale was
high. OIG found the mission’s primary strengths to be a highly motivated, cohesive country team
actively engaged in support of the embassy’s major objectives, and strong performances from the public
affairs section, the regional security office, and the political and economic sections. In the post-Olympic
period, OIG recommended the embassy establish a broadly structured public diplomacy outreach
program, encompassing other mission elements.

     The consular section was managing its workload well but had managerial/morale issues that
required correcting and may need continuing executive office attention. Overall, the management section
was performing adequately, but its component unit American managers needed to take a more proactive
stance in dealing with their unit’s problems, particularly general services operations. Consulate General
Thessaloniki had management/morale problems that need attention. Internal controls were in place
and functioning adequately in Embassy Athens. However, OIG found several weaknesses and left
corrective recommendations.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004             33
        Inspection of Embassy Nicosia, Cyprus
        (ISP-I-04-27A)
        Fieldwork concluded April 2004

             OIG found Embassy Nicosia to be a busy post, absorbed in a single issue of major importance to
        the United States—the Cyprus Settlement process. The embassy deserves recognition for the
        outstanding job it has done in support of the international effort to bring the long-festering Cyprus
        issue to resolution.

             Embassy Nicosia was a well-led, well-run post. The Ambassador gave the mission firm, clear policy
        direction, and the political, public affairs, and economic sections functioned at a high level of
        competence. The embassy was a model in terms of integration of public diplomacy into its diplomatic
        activities. The embassy provided excellent direction to the bicommunal programs funded by the
        Economic Support Fund. The consular section was well managed and had readily adapted to the
        biometric data collection requirement.

             The management section operated efficiently and provided an appropriate level of services across
        the board. It received good marks from the mission staff. Overall, morale was good with complaints
        focused on the school situation and the high cost of living in Cyprus. Management controls were
        effective, although minor weaknesses were noted.




        Inspection of Embassy Berlin, German
        (ISP-I-04-37A)
        Fieldwork concluded July 2004

              Embassy Berlin has performed well in seeking to understand and address German attitudes and
        opinion. It has adopted a creative and aggressive strategy for public outreach designed to counter
        negative German perceptions of the United States. Embassy efforts helped maintain German
        cooperation on key counterterrorism and security issues even during a period of strained bilateral
        relations.

            The size and complexity of Mission Germany pose unique management challenges, including
        constructing and moving to a new chancery in Berlin and establishing an expanded regional services and
        support center in Frankfurt. The Department’s acquisition of Creekbed, a former military hospital
        complex in Frankfurt, is a key element in its plans for an expanded grouping of regional offices capable




34   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
of offering improved and more cost-effective diplomatic and administrative support services to U.S.
missions in Europe, Africa, the Middle East, and parts of Asia. To date, however, the presumed
priority that the Department and the Congress have attached to this project has not been matched by a
comparable commitment of resources. OIG recommended that the Department establish a working
group to review plans and resource requirements for the current and future phases of the Creekbed
project.

     The success of the expanded Frankfurt regional administrative support center will also require
changes in the way the Department currently interprets the authorities granted to chiefs of mission
under National Security Decision Directive 38 (NSDD-38) with respect to overseas staffing. OIG
recommended that the initial responsibility for determining which regional functions and elements to
relocate to Frankfurt should be centralized in the Department as part of the regionalization and
rightsizing effort. Any reinterpretation of existing authorities must, however, recognize and preserve
the Chief of Mission’s responsibility and accountability for the safety and security of all personnel
assigned to his/her mission.

     The decision by Congress to cut by over one-third the construction budget for the Berlin chancery
while simultaneously requiring the embassy to give up other facilities in Berlin was motivated, at least in
part, by a desire to force the issue of rightsizing the Berlin operation. Embassy Berlin has worked
diligently to respond to congressional expectations. The proposed consolidation of administrative
operations in Frankfurt offers a further opportunity to reduce staffing in Berlin and should be pursued
with equal rigor.

     Current congressional directives, if applied rigidly, could impose serious constraints on the
embassy’s ability to accommodate the staff necessary to conduct essential business operations in the
future. Among other things, the current limitations do not take into account the anticipated relocations
of key German government offices to Berlin and the implications of these changes for the staffing of
Embassy Berlin. The restrictions also limit the embassy’s ability to adapt its consular operations to the
changed, post-September 11, 2001, requirements for visa issuance.




Inspection of Embassy Prague, the Czech
Republic (ISP-I-04-39A)
Fieldwork concluded June 2004

    The Czech Republic, as a member of the North Atlantic Treaty Organization and now the
European Union, looks to the Western alliances for ties that will balance its geographic position and
bind it fully to the West. OIG’s inspection found that embassy advocacy has helped assure that the




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004            35
        current government remains generally supportive of U.S. positions; the Czechs have been strong allies
        on counterterrorism and U.S. Middle East policy and have personnel in Afghanistan and Iraq.

              The embassy also provided Washington with timely and highly respected analysis and reporting on
        political, economic, and social issues, including the fragility of the current governing coalition and the
        difficulty of economic reform.

            Morale was almost uniformly high, a tribute, in part, to strong management leadership and support
        across the board. The information management support section received particularly high marks. All
        point to the conclusion that the mission is essentially rightsized. Although the embassy is generally well
        managed, OIG made recommendations for improvements in the consular, information technology, and
        human resources sections.




        Inspection of Embassy The Hague, the
        Netherlands, and Consulate General Amsterdam
        (ISP-I-04-40A)
        Fieldwork concluded June 2004

             Embassy The Hague has successfully achieved its objectives of retaining and expanding the
        historically close and cooperative relations between the United States and the Netherlands. The embassy
        correctly pursues Dutch support across a wide range of issues. Because of the Netherlands’ economic
        strength and status as the world’s sixth largest aid donor, the Dutch have real influence in Europe and in
        international organizations so Dutch support for U.S. positions has a multiplier effect.

             The embassy has had particular success with counterterrorism efforts. The Netherlands was the first
        country in Western Europe to install radiological detection gates to check cargo containers destined for
        the United States. The embassy’s blueprint for working with the Dutch in blocking terrorist financing
        was a best practice paper adopted by the Financial Action Task Force.

             Administrative services are satisfactory and improvinf with theinstitution of a more service-
        oriented approach. OIG made a series of recommendations to improve human resouorces, financial
        management, and information technology services.




36   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Inspection of the Regional Support Center,
Frankfurt, Germany (ISP-I-04-45)
Fieldwork concluded June 2004

OIG found that the Frankfurt Regional Support Center (RSC) is providing outstanding service
supporting posts, particularly in the areas of financial management and human resources
management. The establishment and use of the Foreign Service National Executive Corps by the
Bureau of European and Eurasian Affairs should be emulated by all of the Department’s regional
bureaus. This group of highly qualified, highly experienced Foreign Service nationals, most located in
their home countries, also provide on-site assistance.

     OIG found that some of Frankfurt RSC’s training and support services were duplicated by other
organizations. OIG recommended that Frankfurt RSC coordinate offerings of training courses with the
Foreign Service Institute to ensure quality control, curriculum, and expertise of trainers. OIG also
recommended that the Under Secretary for Management, Office of Management, Policy and Planning,
direct implementation of a program of consolidation of like functions in the Frankfurt RSC that are
presently performed by various regional support activities in Paris and Vienna.

    The printing and publications operation at the Regional Program Office in Vienna produces quality
work but at a very high cost. OIG recommended that the Bureau of Administration and the Frankfurt
RSC do a cost and benefit analysis of the printing and publications operations and the alternative of
outsourcing its work to contractors.

information technology services.



Compliance Follow-up Review of Embassy
Lisbon and Consulate Ponta Delgada, Portugal
(ISP-C-04-47)
Field work concluded May 2004

    OIG conducted a compliance follow-up review (CFR) of Embassy Lisbon and Consulate Ponta
Delgada, Portugal. The original inspection, issued September 2003 (ISP-I-03-35), contained 53
recommendations. Prior to the CFR, 38 recommendations had been closed through the regular
compliance process. Embassy Lisbon had not yet complied with, or contested, 15 others that remained
open.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004       37
             Embassy management worked cooperatively with the CFR team to close the remaining 15
        recommendations. Two recommendations, one to terminate Embassy Lisbon’s shuttle service and one
        to obtain a determination from the Office of the Legal Adviser on the propriety of the use of funds for
        minor construction purposes, were reissued.

              The CFR also included a review of recommendations made in the December 2002 report,
        Information Security Inspection, Embassy Lisbon (IT-I-03-03). Although significant progress had been
        made in addressing deficiencies noted in that report, OIG reissued four of those recommendations
        relating to review of the mission’s user and operational system practices, appointing an independent
        information systems security officer, the random review of user libraries, documents, and mailboxes,
        and deficiencies in the site certification report.


        South Asian Affairs

        Review of Embassy Kabul, Afghanistan
        (ISP-I-04-35 )
        Fieldwork concluded May 2004
             OIG conducted a management assessment review of Embassy Kabul and found it had responded
        well to the President’s decision of summer 2003 to “accelerate success” in Afghanistan. The
        Ambassador exercised extraordinary influence for positive change on the Afghan political scene,
        supported by a hard-working staff willing to endure the challenges of living in Kabul. Morale was
        generally good.

            Embassy Kabul and the Combined Forces Command (CFC) were a model of tandem
        coordination to achieve joint goals. Collocation of the CFC Commanding General in the embassy is a
        concept that may have application in Iraq and future emergency situations. The embassy also
        coordinated closely with the International Security Assistance Force. Provincial Reconstruction Teams,
        combining U.S. and coalition military and civilian officers, were helping to restore order and promote
        development.

             Embassy Kabul’s Mission Performance Plan was a living management tool. The Embassy
        Interagency Planning Group (EIPG) regularly reviewed performance indicators with all units at post,
        providing progress reports to post management and the Deputies Committee1 in Washington.
        Employing military officers to staff the EIPG was innovative; the Department may wish to consider
        whether the EIPG concept could be used in other emergencies and staffed on an interagency basis.

        1
         The Deputies Committee is an interagency policymaking body of the U.S. government made up of the
        number two or other high-ranking officer from the relevant agencies, depending on the issue. They have
        policymaking authority on their own but sometimes meet to prepare an issue for consideration by their
        bosses, as members of the Principals Committee.



38   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
     Another innovative concept, the Afghanistan Reconstruction Group was off to a slow start. Its
purpose, duration, and relationship to the rest of the embassy needed clarification. All three aspects of
U.S. counternarcotics strategy, eradication, judicial and legal reform, and the creation of a strong police,
required urgent attention. The Department had not been able to staff key positions at post, and
Embassy Kabul had not made counternarcotics programs a priority.

     The volume and quality of reporting from the mission was good, particularly given the difficulty of
the operating environment. Better coordination of the numerous mission elements able to contribute
to reporting was needed.

     Proactive and energetic work by Embassy Kabul’s management team had alleviated, to the extent
possible, the primitive living and working conditions. Completion of major construction projects will
allow a more normal post profile to develop over the next year. The Embassy and the Bureau of
Overseas Buildings Operations (OBO) worked well together to manage these massive projects. As
building moves toward completion, OIG urged OBO to find a way to provide earthquake and blast
protection for the renovated office building and to restore funding for the basic necessities and amenities
cut due to cost overruns.



Domestic Bureaus


Inspection of the Bureau of East Asian and
Pacific Affairs (ISP-I-04-30)
Fieldwork concluded March 2004

      OIG found that the Bureau of East Asian and Pacific Affairs (EAP) manages well an impressive,
high-visibility foreign policy portfolio with some of the most important and powerful nations the
United States deals with, including Japan, Korea, and China. EAP’s Assistant Secretary has the personal
and highly delicate roles of chief negotiator with North Korea and coordinator of the relevant policy
initiatives within the U.S. government, with China, and with other regional powers. He confronts the
contentious issue of North Korea, where failure could open the risk of nuclear conflict, with discipline,
skill, and expertise.

     North Korea is the bureau’s priority. It is a demanding and controversial problem that requires
information to be tightly held to avoid unauthorized leaks. This has a negative effect on communication
with other agencies. Within EAP, limiting communication about an important segment of bureau
activity negatively affects morale.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004             39
             OIG made several recommendations related to staffing, including that EAP reprogram, fill, transfer,
        and review positions to use staff more effectively. OIG found that the Office of Public Diplomacy was
        detached from the desk-level, day-to-day operations and recommended that the public diplomacy
        country officers move to the geographic offices where they are needed closer to policy formulation.




        Bureau of International Information Programs
        (ISP-I-04-31)
        Fieldwork concluded March 2004

             OIG’s inspection of the Bureau of International Information Programs (IIP) found it makes an
        important contribution to U.S. public diplomacy through programs aimed at informing and influencing
        the opinion of foreign audiences on U.S. foreign policy. However, the lack of strong, sustained
        leadership over time, lack of clear status of the bureau, including failure to designate the coordinator and
        the deputy coordinators as assistant secretary and deputy assistant secretaries with those titles in the
        Department, and failure to integrate IIP into the Department have contributed to reduced effectiveness,
        accountability and management control problems, isolation, and lowered staff morale.

             OIG recommended that IIP develop a plan to maximize the bureau’s ability to play the key role it
        should play in helping to encourage positive foreign perceptions of U.S. foreign policies. OIG found
        that much greater outreach and advocacy by IIP is needed to ensure that the rest of the Department and
        the field are familiar with IIP products and services and involved in the development and
        implementation of IIP strategies and programs. Current IIP leadership is committed to make this
        happen.

              OIG also recommended that IIP develop a capability to evaluate the effectiveness of its programs
        and services, and reexamine its programs to permit increased focus on youth and disenfranchised
        population groups. OIG noted that IIP needed the Department’s help to reorganize administrative
        services to ensure that effective services, adequate management controls, and accountability arrangements
        are in place.




40   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
            Minimizing Cashier-Provided Accommodation
                 Exchange Overseas (ISP-I-04-34)


    Several OIG inspections conducted overseas found that although local
    banking facilities and automated teller machines (ATMs) are widely available
    and adequate in some countries, embassies continue to use U.S. govern-
    ment funds to pay cashiers to provide routine accommodation exchange
    services for mission employees. In Paris, Geneva, and Brussels, where
    highly developed banking facilities and ATMs exist, for example, embassy
    cashiers continue to provide employees routine accommodation exchange
    services.

    Outsourcing or eliminating routine embassy cashier-provided accommoda-
    tion exchange services in some countries could save U.S. government funds
    and reduce internal control vulnerabilities. Embassy staff time saved would
    include that of the embassy cashier, the cashier’s supervisor, and employees
    waiting in embassy hallways to cash checks. OIG recommended that the
    Department issue a cable encouraging posts to use local banking facilities
    and ATMs, and update Accommodation Exchange sections of the Foreign
    Affairs Manual and Handbook to reflect existence of ATMs.




Review of the Consular Lookout and Support
System (ISP-I-04-53)

     The Office of the Inspector General conducted a review of the Consular Lookout and Support
System (CLASS) at the request of the Assistant Secretary of the Bureau of Consular Affairs (CA),
examining the development of the system, its management, and its operations. CLASS is a
sophisticated, real-time, decision support system used to perform name checks of visa and passport
applicants and foreign visitors entering the United States. OIG found that CLASS is a critical U.S.
government asset, regarded by many as the best of the security community enterprise systems, unique
both in character and in the immense investment made to tailor it to the mission.

    OIG found that CA has been an innovative user and effective advocate of open data exchanges with
CLASS representing a major link between the Department and other key agencies. Both CA and the
Bureau of Information Resource Management (IRM) favor closer collaboration, and the Open Sources
Information System-enabled consolidated consular database will play an increasing role in this area.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004     41
             To pursue these goals, OIG found that better management of CA systems development and closer
        cooperation with IRM are essential. Tighter management controls are required and an information
        management office should be established and adequately staffed. Current CLASS policies and
        regulations are out of date and should be revised.



            Regionalization of Embassy Staff in Progress, but New Responsibilities Strain
                                Resources, Management Structures

        The President’s Management Agenda calls for the U.S. government to rationalize an overseas presence
        determined more by bureaucratic inertia and historical legacy than by long-term foreign policy goals. OIG
        finds that the Department is making incremental progress in consolidating services at regional support
        hubs. However, in most cases, growth at regional hubs has not been well planned and has strained
        existing resources and management structures.

        During the last year, OIG conducted post inspections at three of the Department’s four major regional
        centers in Germany, Thailand, and South Africa. The Department’s regional centers provide support
        across the spectrum of embassy operations including not only administrative services such as
        accounting, information management, and human resources, but also program support from as many
        as 30 different agencies, ranging from the Federal Bureau of Investigation to the Centers for Disease
        Control.



        •     Frankfurt, Germany: OIG found that the largest regional center, Frankfurt, does an outstanding
              job of providing services to its customers in over 100 countries. Frankfurt is already the largest
              consulate in the world. The Department’s acquisition of Creekbed, a former military hospital
              complex in Frankfurt, is a key element in its plans for an expanded grouping of regional offices
              capable of offering improved and more cost-effective diplomatic and administrative support. To
              date, however, the presumed priority that the State Department and the Congress have attached
              to this project has not been matched by a comparable commitment of resources. OIG
              recommended extensive changes to the embassy’s management structure to accommodate its
              growing regional responsibilities.




42   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
•   Bangkok, Thailand: Thailand has become a de facto regional hub for supporting 59 posts in Asia
    and the Middle East. Services provided by most of the regional providers evaluated by OIG
    received high marks from customers. To date, the accretion of regional operations and
    concomitant growth in staff have taken place in piecemeal fashion. Although Washington
    policymakers are in the best position to decide who comes to post, OIG did not find evidence
    that requests from other agencies are considered in the context of how they might relate to one
    another or their overall impact. Executive direction of this mega-mission is complicated by the
    unusually large number of regional operations at the embassy.

•   Pretoria, South Africa: OIG found that the regional center at Pretoria has developed without long-
    range planning and resources commensurate to its responsibilities. In the early 1990s, only three
    U.S. government agencies were represented at the mission, and they focused on a fairly narrow
    policy agenda. Today, there are 28 agencies represented at the mission. Of the over 740 staff,
    fully 100 provide regional support. Fundamentally, the virtual unchecked growth in the South
    Africa mission has continued without necessary investment in the support platform. Although
    Pretoria and Johannesburg offer unique advantages in terms of providing regional support to
    Africa, the mission’s physical infrastructure is inadequate for future expansion. The regional
    support currently provided is already insufficient to maintain fully effective operations in the
    surrounding embassies, particularly in the areas of information management and security. The
    effect on staff has been lower morale and dissatisfaction with basic services at the bilateral
    mission.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004       43
                                            Best Practices


            Ankara


            Best Practice: Electronic Sharing of Warden Lists

            Issue: All regions in Turkey are subject to earthquakes and security con-
            cerns. Contacting all emergency wardens quickly is difficult.

            Response: In order to ensure that designated wardens and Americans
            residing in or visiting Turkey can be reached, the embassy and consulates
            received authorization from the Department to share warden lists electroni-
            cally. This permits Ankara or Istanbul to notify Americans nationwide if the
            local consular district office cannot do so.

            Result: There is now more reliable means to contact designated wardens
            and Americans in Turkey. This represents an excellent back-up plan, and
            OIG commends the Department and post for this best practice.


            The Bureau of East Asian and Pacific Affairs


            Best Practice: Initiatives to improve morale, communication, and productiv-
            ity of the bureau’s office management specialists.

            Issue: There was pervasive discontent among office management special-
            ists and some of their supervisors.

            Response: The bureau initiated a series of in-house seminars as a mecha-
            nism to promote a dialogue and provide training to staff. The agenda of one
            of the seminars included “How the Front Office Works” and “Paper Flow:
            Getting Your Office’s Product to the Right Person in the Right Shape.” The
            seminars featured high-level EAP and Department officials.

            Result: Many office management specialists have a better appreciation of
            the contribution they make to the bureau and have taken on new opportuni-
            ties and challenges as a result of the seminars.


            Beijing


            Best Practice: A well-conceived mission-wide entry-level officer program.

            Issue: Expanding entry-level officer participation in mission-wide activities
            contributing to career development and effective use of a large pool of
            entry-level officers.



44   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
    Response: The DCM has developed a well-conceived entry-level officer
    program that has regional implications and application. The program incor-
    porates cross training in most of the mission’s activities. Officers are given
    the opportunity to deal with issues at the mission level as well as at constitu-
    ent posts’ levels.

    Result: Entry-level officers have very responsible positions due to the
    language and hardship assignment difficulties. This large percentage of
    entry-level officers is turning out excellent performance under stressful and
    challenging conditions, and at the same time this program helps them pursue
    career progression in a positive fashion.

    Best Practice: Publication of Standard American English Bimonthly

    Issue: Voice of America Standard American English Web Site is blocked in
    China.

    Response: The public affairs section in Shanghai selects articles on Ameri-
    can politics, economy, and culture from the Voice of America web site and
    provides them to a Shanghai audiovisual publishing house for resale and
    use in schools and universities throughout Shanghai.

    Result: Teachers use the book as a major resource for teaching English in
    Chinese high schools. Universities also use the book as an important
    English speaking educational resource.

    Prague


    Best Practice: Automated Mobile Phone Billing System

    Issue: The embassy wanted to create a more efficient way to review tele-
    phone invoices for official and personal calls.

    Response: The financial management section, working in conjunction with
    the procurement and information management offices, developed an auto-
    mated program that creates an individual invoice for each telephone call and
    sends the invoice to each user by e-mail. The users are required to highlight
    all personal calls, certify the invoice, and return it to the financial manage-
    ment office. To make identification easier, all official numbers are high-
    lighted, and a user can mark multiple appearances of the same number with
    one mouse click. In addition, when the invoice is sent to the user, fiscal data
    is applied automatically, making payment even easier.

    Result: This automated system has reduced the amount of time that was
    required for the former manual process (for example, making photocopies




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   45
            of invoices, sending the invoices to users, calculating the amount due, and
            billing requirements). Because the system is paperless, the requirement to
            store paper invoices has been reduced to storing the data on CD’s.

            Best Practice: Vendor Procurement Conference

            Issue: The embassy found that when blanket purchase orders were intro-
            duced into the vendor community, many of the vendors did not understand
            how this new procurement mechanism worked. As a result, the embassy had
            difficulty getting vendors to do business with the embassy.

            Response: The embassy organized a vendor conference. This conference
            took the vendors though the embassy’s procurement process. For example,
            how the embassy gets its money, the roles of the embassy procurement
            staff, the different categories of procurement and how it affects the vendors,
            and how the embassy financial office operates, and how different payments
            are made.

            Result: The conference was a success and the vendors walked away with
            the knowledge of how to do better business with the embassy. The embassy
            plans to continue this conference annually.

            Best Practice: Employee Procurement Conference

            Issue: A rash of unauthorized commitments occurred at the embassy.

            Response: The embassy organized and held an employee procurement
            conference to better train nonprocurement employees about how the pro-
            curement system works and what is expected of them as a client to ensure
            adherence to Department and embassy regulations and procedures. The
            embassy financial management office also participated so that customers
            could receive an overview of the purchase process from request,
            vouchering, funding and receiving, to payment.

            Result: Since the conference, the embassy has not had another unauthor -
            ized commitment occur. The embassy plans to continue this conference
            annually.




46   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                        Audits
                                               AUDITS




Contracts and Grants Division



Review of World Relief Corporation of National
Association of Evangelicals’ Refugee Reception
and Placement Program (AUD/CG-04-49)




                             WR World Headquarters, Baltimore, MD


     At the request of the Department, OIG conducted a review of the World Relief Corporation of
National Association of Evangelicals’ (WR) Refugee Reception and Placement Program for FYs 2000,
2001, and 2002. OIG found that WR needs to make significant improvements in its accountability for
federal funds, internal controls, and compliance with regulations and terms of the agreements.
Specifically, the grantee (1) did not record or allocate costs to its federal programs based on a rational or
logical methodology, (2) had significant spending in the fourth quarter of 2002 when refugee arrivals
declined, and (3) had inconsistencies between the financial data recorded in the grantee’s official
accounting records and the amounts reported in the certified financial reports and its annual single audit
reports.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004              47
             As a result of deficiencies noted, OIG questioned costs totaling about $2.2 million. Of that

                              INFORMATION TECHNOLOGY
        amount, $154,207 was unauthorized or unallowable under terms and conditions of the agreements and
        $2,034,203 was classified as unsupported because of either inadequate or a lack of documentation. OIG
        recommended that the Bureau of Population, Refugees, and Migration (PRM) require the grantee to
        comply with the terms and conditions of the agreements, reimburse the Department for unallowable
        costs, and provide additional documentation for unsupported costs.




        Analytical Review of the Multinational Force and
        Observers’ (MFO) FY 2002 and FY 2003
        Financial Statements, and FY 2004 and FY 2005
        Budgets (AUD/CG-04-44)

        •   The MFO’s FY 2003 expenses totaled $48.5 million, a decrease of $3.8 million (7.3 percent) from
            its FY 2002 expenses of $52.3 million. The most significant change was that the MFO’s supplies
            expenses decreased by $3.6 million mainly because MFO used older aircraft for spares instead of
            purchasing new parts.

        •   The external auditor opined that the FY 2002 and 2003 financial statements presented fairly, in all
            material respects, the financial position of the MFO.

        •   The FY 2004 and FY 2005 budgeted expenses for each year were $51 million, which has
            remained unchanged since 1995.




        Factsheet on the Iraqi National Congress
        Support Foundation (AUD/CG-04-41)

             In response to congressional interest, OIG prepared a factsheet on the Iraqi National Congress
        Support Foundation (INCSF). The factsheet provided information from two OIG audit reports as well
        as pertinent information obtained from other audit entities, such as the Government Accountability
        Office. From March 2000 until September 2003, the Department awarded 5 cooperative agreements and
        18 amendments totaling approximately $32.6 million to INCSF. Of this amount, OIG examined
        approximately $15.4 million or 47 percent. Of the amount examined, OIG questioned $2.3 million or
        14.9 percent. To date, INCSF has not remitted any of these questioned costs.




48   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Evaluation of Financial Management Activities
Office of Antiterrorism Assistance
(AUD/CG-04-40)

     OIG evaluated financial management processes, procedures, and systems used by the Office of
Antiterrorism Assistance (ATA) and provided appropriate recommendations for improvements. OIG
designed the work to be carried out in three phases: survey, evaluation, and reporting. This report
presented results of the survey phase and identified four specific risk areas: (1) standard operating
procedures documentation generally did not exist; (2) information systems were not integrated, resulting
in untimely and inaccurate information that ultimately hampers program heads in efficiently managing
programs; (3) a large number of contractors held program management positions that, for practical
purposes, should be held by direct hires; and (4) the procurement process lacked the efficiencies needed
to properly equip ATA training programs on a timely basis.




The National Endowment for Democracy
(AUD/CG-04-39)

     The National Endowment for Democracy Act, as amended, mandates that OIG audit the annual
financial transactions of National Endowment for Democracy (the Endowment). OIG found that the
Endowment generally had adequately accounted for federal funds. However, OIG noted two issues
requiring attention: improving the identification and segregation of funds by grant and establishing a
negotiated indirect cost rate agreement. Additionally, OIG determined that the increased funding received
for the two most recent years, FYs 2003 and 2004, coupled with a proposed significant increase in the
annual appropriation for FY 2005, will increase the need for efficient administration and oversight.



     The Endowment also generally complied with laws, regulations, policies, and terms of the
agreements. However, OIG identified several areas where the Endowment could improve its
administration of the grant-awarding and -monitoring process. Specifically, OIG noted issues with the
timeliness of the risk assessment and the execution of the grant award as well as with monitoring
policies, procedures, and practices. Finally, high bank balances for an account maintaining federal funds
remain an area of concern from the previous audit of the Endowment; consequently, OIG reissued a
recommendation pertaining to this problem.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          49
        Application of Agreed-Upon Procedures on a
        Claim for General and Administrative Expenses
        on Travel Costs by North American
        Telecommunications, Inc. (AUD/CG-04-36)

             OIG performed agreed-upon procedures on a claim for general and administrative expenses on
        travel costs by North American Telecommunications, Inc. (NATI). OIG considered the claim to be in
        accordance with NATI’s and its subcontractor’s usual accounting practices consistent with Federal
        Acquisition Regulation Subpart 31.2 and, as such, allowable in accordance with the terms and conditions
        of the contract under which NATI made its claim. OIG recommended that a Department contracting
        officer accept the amount claimed by NATI.




        Review of the International Republican Institute
        Indirect Cost Rates for Fiscal Years 1999
        through 2003 (AUD/CG-04-35)

             At the request of the Department and as part of the overall audit of the National Endowment for
        Democracy, OIG conducted a review of the indirect costs reported by the International Republican
        Institute (IRI) for fiscal years ending September 30, 1999 through 2003. OIG found that the indirect cost
        rates reported by IRI in its Office of Management and Budget (OMB) Circular A-133, Audits of States,
        Local Governments, and Non-Profit Organizations, single audit reports for the stated periods were
        mathematically correct for FYs 1999 through 2003. However, OIG also noted that these rates did not
        comply with OMB Circular A-122, Cost Principles for Non-Profit Organizations. For example, IRI did not
        break out the indirect cost component into the required facilities and administration categories.

             Additionally, the recommended indirect cost rates were lower than the provisional rates, which
        resulted in excess reimbursements to IRI for indirect expenses. Moreover, OIG found questioned costs
        of $10,168 for advertising and public relations costs and adjusted $40,291 from the overhead base for
        the portion of a fundraising contract that does not receive an allocation of overhead.

            OIG recommended that the Department require IRI to comply with OMB Circular A-122 by
        breaking out its rates by facilities and administration, or provide the grantee with a written waiver of the
        requirements and accept the recommended indirect cost rates for FYs 1999 through 2003 as a basis for
        negotiating the final indirect cost rates with IRI.




50   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Evaluation and Analysis of Cost and Schedule
Data for the Kabul Embassy Compound Project
(AUD/CG-04-34)

     At the request of the Department, OIG evaluated and analyzed cost and schedule data submitted
by Kellogg, Brown, & Root, Inc. (KBR) under Contract No. SALMEC-02-C-0042 for the design and
construction of an embassy compound in Kabul, Afghanistan. The contractor has projected schedule
delays and cost overruns on the contract. The original schedule called for mobilization to begin in
October 2002 and completion of the contract in December 2004. The contractor’s current estimated
completion date is May 2005.

      OIG concluded that this cost-plus-fixed-fee contract provided the contractor with limited
motivation to complete the project on time and within budget. OIG also concluded that the contractor
failed to comply with the contract’s schedule, thereby hindering efforts by the Bureau of Overseas
Buildings Operations (OBO) to fully oversee the Embassy Kabul project. OIG recommended that
OBO (1) require the contractor to conform to the schedule specified in the contract by providing detailed
manpower requirements, material and equipment requirements, and related cost elements; (2) review
such estimates for adequacy, reasonableness, and appropriateness; (3) require the contractor to
incorporate OBO revisions and recommendations in its schedule; and (4) require the contractor to
establish such procedures as are necessary to ensure that the schedules submitted by the contractor are, in
fact, implemented by project field staff.




Review of the World Relief Corporation Indirect
Cost Rates for Fiscal Year 2002 (AUD/CG-04-33)

     At the request of the Department, OIG conducted a review of FY 2002 indirect cost rates for WR.
As of March 1, 2004, WR had not submitted its FY 2002 indirect cost rate proposal to the Department
as required by OMB Circular A-122, Cost Principles for Non-Profit Organizations. OIG found that the
indirect cost rate reported by WR in its draft indirect cost proposal for the stated period was
mathematically correct. However, OIG also noted that this rate did not comply with OMB Circular A-
122. For example, WR excluded bad debt expense from the indirect cost base. OIG questioned
unallowable and misclassified costs in the indirect pools. As a result, OIG adjusted the indirect cost rates
and reduced the U.S. Program Management and Overseas Program Management rates.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004             51
            OIG recommended that the Department require WR to comply with OMB Circular A-122 by
        submitting an annual indirect cost rate proposal within the required timeframe and accept the
        recommended indirect cost rates for FY 2002 as a basis for negotiating the final indirect cost rates.




        Application of Agreed-Upon Procedures on
        Indirect Cost Rates Proposed by National
        Council for International Visitors
        (AUD/CG-04-31)

              At the request of the Department, OIG performed a review of the National Council for
        International Visitors’ proposed indirect cost rates. The grantee’s accounting system was adequate to
        accumulate and report indirect costs and allocate costs equitably among final cost objectives. However,
        OIG noted that the proposed indirect cost for FYs 1998 through 2002 included a year-end accrual for
        unvested sick leave that contravenes accounting practices generally accepted in the United States of
        America. Accordingly, OIG questioned those costs, $19,719, in their entirety. OIG recommended that
        the Department accept and finalize the indirect cost rates as adjusted by OIG for the accrued unvested
        sick leave reported by the grantee for the fiscal years ending September 30, 1998 through 2002.




        Application of Agreed-Upon Procedures on
        Indirect Cost Rates Proposed by the Nacel Open
        Door, Inc. (AUD/CG-04-30)

             At the request of the Department, OIG performed a review of the Nacel Open Door, Inc.’s
        proposed indirect cost rates. The grantee was generally unable to reconcile the amounts presented as
        general and administrative costs for its government grants to its books and records or its financial
        statements. Because of this condition, OIG was precluded from performing sufficient work to enable it
        to express an opinion on the rates proposed by the grantee for grant years 1994 through 2001, inclusive,
        and therefore did not.




52   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by the Graduate
School, USDA (AUD/CG-04-29)

At the request of the Department, OIG performed a review of the Graduate School, U.S. Department
of Agriculture (USDA’s) proposed indirect cost rates for FYs 1999 through 2001. OIG’s review disclosed
that the indirect costs for fiscal years ending September 30, 1999 through 2001 reported by the grantee
were properly calculated and allowable under the provisions of OMB Circular A-122. However, OIG did
note that the indirect cost proposals for each of the fiscal years from 1999 through 2001 included, as a
separate category, an administrative fee for participant support costs and other program enhancement
costs, but the administrative fee was not supported by any recorded indirect costs. Accordingly, OIG
questioned those fees in their entirety. OIG recommended that the Department obtain reimbursement
for the questioned costs.




Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by the
International Center forJournalists, Inc.
(AUD/CG-04-27)


     At the request of the Department, OIG performed a review of the International Center for
Journalists, Inc.’s proposed indirect cost rates. The grantee’s accounting system was adequate to
accumulate and report indirect costs and allocate costs equitably among final cost objectives. However,
OIG noted that the fringe benefit amount used in computing the fringe benefit rate for FY 1996
included an amount that was not an allowable fringe benefit component. OIG adjusted the submitted
fringe benefit rate and recommended that the Department accept and finalize the 1996 fringe benefit rate
as adjusted, and accept and finalize the 1996 through 2002 indirect rates and the 1997 through 2002
fringe benefit rates as submitted.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         53
        Application of Agreed-Upon Procedures on
        Indirect Cost Rates Proposed by Sister Cities
        International, Inc. (AUD/CG-04-26)

             At the request of the Department, OIG performed a review of Sister Cities International, Inc.’s
        proposed indirect cost rates for FYs 1993 through 2002. The grantee’s accounting system was adequate
        to accumulate and report indirect costs and allocate costs equitably among final cost objectives, and
        procedures existed to determine allowable costs for FYs 2001 and 2002. The absence of any supporting
        records for FYs 1993 through 2000, however, prevented OIG from performing the necessary procedures
        to enable OIG to comment on or recommend the acceptance of rates for those fiscal years.




54   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
           Nonfederal Audits of Nonprofit Institutions and
                      Fulbright Commissions


    Starting in October, OIG will participate in the National Single Audit Coordina-
    tors project to assess single audit quality government-wide.

    OMB Circular No. A-133, Audits of States, Local Governments, and Non-
    Profit Organizations, establishes audit requirements for specified entities
    receiving federal awards. Public accounting firms employed by nonfederal
    entities conduct the audits. The firms file these single audit reports with the
    Federal Audit Clearinghouse, which forwards reports containing findings and
    questioned costs to OIG. OIG reviews all audit reports involving Department
    funds and provides quality assurance and general oversight. During the 6-
    month reporting period, OIG completed 32 analytical desk reviews of single
    audit reports for 12 entities, with Department expenditures totaling
    $322,662,229. OIG submitted the completed reviews to the Department,
    recommending that it resolve questioned costs totaling $324,912. OIG
    recommended that the Department finalize provisional indirect cost rates and
    ensure correction of grantee internal control weaknesses and instances of
    noncompliance.

       Report Number                 Grantee                     Questioned Costs
       04-A133C02            Nacel Open Door, Inc                      $176,694
       04-A133C03            Wheelchair Foundation                     $126,626
       04-A133C04            Church World Service                      $10,409
       04-A133C05            Trustees of Anatolia College              0
       04-A133C06            American Council for International
                             Education                                 0
       04-A133C07            Center for Citizens Initiatives           0
       04-A133C08            American Institute in Taiwan              0
       04-A133C09            American Refugee Committee                0
       04-A133C10            National Strategy Information Center      $10,000
       04-A133C11            American Council of Young Political
                             Leaders                                   0
       04-A133C12            LASPAU: Academic & Professional
                             Programs for the Americas                 $1,183
       04-A133C13            Sister Cities International               0
       Total                                                         $324,912

    During the 6-month period, OIG also received three Fulbright Commission
    audit reports (Belgium and Luxembourg for FY 2000 and Brazil for 2000 and
    2001), which the Fulbright program regulations require. OIG’s initial reviews
    identified no questioned costs or compliance issues.



Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   55
                                   Lockerbie Trial Costs Settled


            In September 2002, OIG issued its audit report, Review of Lockerbie Trial
            Costs (AUD/CG-02-43). OIG conducted this review to determine (1) the total
            costs of conducting the trial, and (2) the appropriate incremental costs of
            conducting the trial in the Netherlands rather than in Scotland. On the basis
            of an informal agreement to fund half the appropriate incremental costs of
            conducting the trial in the Netherlands rather than Scotland, the Department
            awarded a grant to the U.K. to fund a portion of the trial costs. OIG con-
            cluded that the Department had paid the U.K. approximately $23 million, with
            a balance of $8 million due to the U.K. for trial costs.

            The U.K. had originally requested an additional $21 million from the United
            States. In September 2004, the U.K. and the Department reached a negoti-
            ated final settlement of $8 million. OIG’s work resulted in $13 million of funds
            put to better use for the Department.




        Financial Management Division



        Application of Agreed-Upon Procedures for
        Retirement, Health Benefits, and Life Insurance
        Withholdings/Contributions and Supplemental
        Semiannual Headcount Report (AUD/FM-04-50)

             Under OIG’s direction, an independent external auditor performed the procedures enumerated in
        OMB Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, Appendix I-1. These
        procedures were performed solely to assist the Office of Personnel Management in assessing the
        reasonableness of the Retirement, Health Benefits, and Life Insurance withholdings and contributions
        as well as semiannual headcount information submitted by the Department.




56   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Review of Cashiering Operations at Embassy
Baghdad (AUD/IQO-04-48)

    Embassy Baghdad began operations on June 28, 2004. OIG initiated a review of the internal
controls related to the cashiering operations at Embassy Baghdad because of the high volume of cash
expected to be disbursed at the embassy and the risks generally associated with cash payments.

    OIG did not identify any significant internal control weaknesses in the embassy’s initial start-up
operation; however, it did identify some issues that the embassy needs to address. First, the U.S. Army
was providing many services to the embassy. Although the embassy planned to expand its cashiering
operations in October 2004, the U.S. Army will continue to provide some significant services. The
embassy needs to develop a formal agreement related to these services.

     Second, the embassy was in the process of developing cashiering policies and procedures, but these
had not been completed during OIG’s review. In addition, OIG noted some concerns with the
availability of system support for future cashiering operations.


     OIG recommended that the embassy establish a memorandum of agreement with the U.S. Army
to ensure that it continues to provide essential cashiering services; develop and publish specific policies
and procedures for the post’s cashiering operations; and ensure that adequate systems support is
available.




International Boundary and Water Commission Financial
Statements for FY 2003 (AUD/FM-04-46)

      International Boundary and Water Commission’s, U.S. Section (USIBWC), financial statements as
of September 30, 2003, in order to report on whether they fairly present the financial position and results
of financial operations in accordance with generally accepted accounting principles, to determine whether
USIBWC has an internal control structure that provides reasonable assurance of achieving internal
control objectives, and to determine whether USIBWC complied with applicable laws and regulations.
USIBWC is charged by a series of treaties between the governments of the United States and Mexico
with the application, regulation, and exercise of the provisions of such agreements for the solution of
water and boundary problems along the United States and Mexico boundary.

    OIG’s contractor issued an unqualified opinion on the USIBWC financial statements as of
September 30, 2003. However, the audit found that USIBWC did not maintain general ledger accounts




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004            57
        accurately in accordance with federal accounting principles and systems requirements, which was
        considered a material weakness. The audit also found that USIBWC did not fully comply with the Clean
        Water Act.




        Audit of the International Cooperative
        Administrative Support Services’ 2002 and 2001
        Financial Statements (AUD/FM-04-43)

             An independent external auditor, under OIG’s direction, audited the International Cooperative
        Administrative Support Services’ (ICASS) 2002 and 2001 financial statements to obtain reasonable
        assurance and express an opinion on whether the financial statements fairly present, in all material
        respects, the financial position and results of financial operations in conformity with generally accepted
        accounting principles; to determine whether ICASS had an internal control structure that provided
        reasonable assurance of achieving internal control objectives; and to determine whether ICASS complied
        with applicable laws and regulations.

             Although the external auditor issued an unqualified opinion on the ICASS 2002 and 2001 financial
        statements, the report brought to management’s attention concerns about security over the
        Department’s information system networks and the inadequacy of the Department’s financial and
        accounting system controls over undelivered orders.




        Audit of the Controls Over the Move of Domestic Financial
        Operations to Charleston (AUD/FM-04-42)

             As part of its efforts to consolidate worldwide financial management operations at a centralized
        location in the United States, the Department is transferring Washington-based domestic financial
        services to the Charleston Financial Service Center (CFSC) in Charleston, South Carolina. OIG reviewed
        the controls to minimize the inherent risks associated with the transfer.



             OIG found that the Department did not have adequate controls to prevent and detect financial
        errors and irregularities. In addition, the consolidation plans developed by the Department to
        implement the move were not complete enough to enable management to ensure that critical services




58   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
would continue throughout the transfer and to manage and limit the effect of potential lapses in
services. No errors or irregularities caused by the control weaknesses or significant reductions in services
came to OIG’s attention. OIG also noted that the Department continued to refine its consolidation
plans throughout this review and had already taken action to address many of the issues presented in
this report. Because of these positive actions, OIG did not make recommendations to improve controls
or management of the transfer in this report.

     OIG did recommend, however, that the Bureau of Resource Management document the lessons
learned from its consolidation of financial services at CFSC so that they can be applied to future
Department projects.




Procurement, Property, and Administrative
Support Division


Review of the Department of State Procurement
Competitions To Support the Iraqi Police
Training Program (AUD/IQO-04-47)

     OIG assessed the procurement evaluation and award procedures associated with two procurement
actions awarded to Dyncorp International during 2003 and 2004 to support Iraqi police training
programs. From this review, OIG determined that Department contracting personnel followed
applicable procurement regulations and procedures that promoted competition, and all offerors were
treated fairly and equitably. However, the initial procurement action inaccurately described the services that
subsequently were required. INL officials had developed a statement of work based on technical and cost
criteria to provide law enforcement personnel for service in Iraq. The contract instead provided facility
support advisors in Iraq funded by the Coalition Provisional Authority. In Jordan, the contract was used
to construct Iraqi police training facilities and operate and maintain these facilities. The initial contracting
action was to be temporary, pending a worldwide multiyear award for international police training and
advisory services. This latter procurement action was designed to foster competition between three
qualified contractors, although task orders could be sole-sourced.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004                 59
               In April 2004, a portion of the initial contract dealing with support service to the Iraqi police
        training center in Jordan was extended for one year. However, the second multiyear procurment action
        (2004-08) was available, and the requirements could have been competed. In April 2004, the portion of
        the initial contract with DynCorp dealing with facility support for CPA-funded advisors in Iraq was
        removed and was awared noncompetitively as a sole-source task order. The justification for this action at
        about $189 million indicated that DynCorp would continue the efforts begun under the initial contract
        and work on new requirements to build training facilities in Baghdad.


               INL offficials agreed that future task orders under the second multiyear contract would have more
        clearly defined requirements that would promote maximum competition. OIG plans to monitor
        competition for international police training and advisory services in future work. In response to draft
        of this report, INL officials identified many of the obstacles they encountered in supporting Iraqi police
        training efforts.




        Review of Allegations Concerning DynCorp
        International’s World wide Personal
        Protective Services Contract in
        Afghanistan (AUD/PPA-04-45)

             OIG learned of allegations pertaining to improper
        management activities regarding DynCorp
        International’s Worldwide Personal Protective Services
        (WPPS) contract in Afghanistan. This portion of the
        contract provides protective services, construction of a
        housing compound, and related operational support for
        the president of Afghanistan and the U.S. Embassy in              The “Yellow House” construction renovation project
        Kabul. In November 2003, a source raised allegations of           where OIG found a $57,605 double-billing, plus indi-
                                                                          rect costs. The building was never used by the con-
        possible WPPS contract fraud.                                     tractor and was turned over to the Afghan government.


             OIG’s review found no indications of fraud or mismanagement by the contractor. OIG Identified
        poor financial oversight of the contractor by the Bureau of Diplomatic Security (DS) that allowed duplicate
        or erroneous billings of about $950,00 to be charged to the contract. This amount was identified from
        reviewing $17 million of $60.6 million in contract expenses. OIG also noted instances of poor acounting
        of expenses by DynCorp, including charges to the wrong task order. DS has acknowledged that contractor
        financial oversight needs to be improved and has proposed hiring a financial specialist to review contractor
        invoices. The contracting officer reported that, thus far, the credits have totaled over $1.4.million.


60   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Review of the Management of Compound
Physical Security Upgrades (AUD/PPA-04-37)




          View from international school looking at the security wall around consulate
                                building Dhahran, Saudi Arabia


     Since a reorganization in May 2001, OBO headquarters management has initiated several
improvements to make the compound physical security upgrades program more timely and cost-
effective. Under new leadership, OBO has reengineered its planning processes and emphasized its
interest in timely results and cost containment. OIG found that the processes for identifying and
approving projects needing security upgrades and for planning, funding, and procuring contracts were
well conceived. However, OIG found that the procedures, particularly communications with the posts,
could be improved to help reduce the confusion and disruption that some posts experience during
project planning and construction. Also, the construction projects that had onsite OBO project directors
were better equipped to solve problems than were sites with consulting contractors, who could not make
the necessary construction changes. Finally, although OBO has processes and procedures in place for the
procurement and review of architectural drawings, OIG found that some of the drawings were faulty,
having erroneous dimensions that caused project delays that could be subject to contractor claims.

     On the basis of OIG’s work, the contracting officer initiated liability actions against an
architect and engineering firm for its errors and omissions. For future upgrades, OBO intends to:

•   write an impact statement to notify the post about construction activities that may impact
    personnel or operations;

•   designate a regional employee that will act as an OBO project director;

•   improve the communications with post personnel by including them in planning meetings (via
    meeting minutes) and pre-bid meetings;

•   improve the process for making changes to drawings that are agreed to at design reviews; and

•   perform evaluations of the architect and engineering firms.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         61
        Review of the Bureau of Overseas Buildings
        Operations’ New Embassy Construction
        Program Planning and Design Phase
        (AUD/PPA-04-07)


              This review assessed the New Embassy Compound (NEC) Program design and planning phases.
        OIG found that OBO headquarters management has initiated several improvements to the NEC
        program to address more timely and cost-effective embassy construction. OBO believes that process
        improvements will significantly reduce the time from contract award to construction completion. Also,
        OBO’s new fixed-price contract process can reduce the risk to the Department of escalating costs and
        shift the financial risk to the contractor.

             OIG found that communication between OBO and Department bureaus, tenant agencies and their
        headquarters, and other agencies concerned with projected overseas staffing needed improvement.
        During the course of the review, OIG observed that over half of the tenant agencies that were contacted
        indicated they had communication problems with OBO staff, including not being fully informed about
        the planning and design process. In addition, five regional bureaus had different views about the quality
        of communication among OBO, the bureaus, and the posts.

             After OIG’s review, significant program changes did occur, including improvements to the risk
        assessment process that could significantly reduce the potential delays OIG identified for NEC
        construction projects. In July 2003, the Department published the Guide to Developing Staffing Projections
        for New Embassy and Consulate Compound Construction to address many of the concerns voiced by tenant
        agencies and Department bureaus. OBO has begun to host annual meetings to discuss the staffing
        projection process with responsible representatives from tenant agencies and regional and program
        bureaus.




62   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Review of Diplomatic Telecommunications
Service Program Office Unexpended Balances
for FYs 1995-2002 (AUD/PPA-04-22)

      On the basis of information OIG learned during a separate review of the Department’s financial
contributions made to the Diplomatic Telecommunications Service Program Office (DTS-PO), the
Department asked DTS-PO for more documentation. For FYs 1995-2002, OIG identified unliquidated
obligations totaling about $28.3 million and unobligated balances of about $9.5 million from annual
Department allotments for DTS-PO. The funding authorities for some of the $9.5 million in
unobligated balances have expired, and the funds may have to revert back to the Treasury. OIG discussed
its findings with Department officials, but did not attempt to determine the reasons why such large
balances were carried forwarded or have yet to be liquidated. About $1.8 million, to date, has been
deobligated and put to better use.




Program Reviews Division

Review of the International Traffic in Arms
Regulations Registration Fee Collection Process
(AUD/PR-04-25)

     At the request of the Department, OIG reviewed the International Traffic in Arms Regulations
(ITAR) registration fee collection process. OIG’s review addressed the current manual and proposed
electronic registration fee collection processes and the obstacles the Bureau of Political-Military Affairs,
Directorate of Defense Trade Controls (PM/DDTC) encounters in receiving and using the monies
collected.

     OIG found that processing registration fees for export licensing did not occur in a timely manner.
Several offices play a role in the collection, recording, and allotment of registration fees. Delays in each of
these steps resulted in unnecessary delays in making funds available to PM/DDTC.

     OIG concluded that the fee collection, recording, and allotment process was too complex and
inefficient and recommended several steps to streamline and improve its timeliness. OIG also identified
management and internal control weaknesses that need to be addressed. The implementation of OIG’s
recommendations should improve PM/DDTC’s planning and use of the registration fees collected.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004                63
        Review of Export Controls for Foreign Persons
        Employed at Companies and Universities (AUD/
        PR-04-24)

              In response to a congressional mandate, OIG audited the Department’s implementation of the
        ITAR pertaining to foreign persons in the United States and their access to items on the U.S. Munitions
        List. The Inspectors General of the Departments of Commerce, Defense, Energy, and State are to audit
        their respective agency’s adherence to U.S. government policies and procedures for the export of
        technologies and technical information to countries and entities of concern.

              Overall, OIG found that PM/DDTC’s export control processes are supported by outside agencies,
        including Commerce, Defense, and Homeland Security, and coordination takes place between PM/
        DDTC and other Department bureaus that support export controls over foreign persons employed by
        U.S. companies and universities. OIG found that PM/DDTC is not yet able to identify all foreign
        persons employed in the U.S. defense trade because it has not fully implemented planned improvements
        to its information management systems. OIG also found opportunities for improvements in the
        Department’s export control outreach and compliance audit programs.

            The seven companies and one university OIG visited had established export control compliance
        programs, and most export control documents were up-to-date. However, 23 out of 26 companies
        OIG contacted had problems providing an accurate number of foreign persons employed. Additionally,
        OIG’s review found that one company was allowing foreign persons to continue working after their visa
        had expired because their I-94 work authorization and their export license had not expired.



            Among OIG’s recommendations were that the Department:

            •    improve its information management systems to ensure that foreign
                 persons employed in the U.S. defense trade can be accurately identified;

            •    develop export control compliance audit policies and procedures; and

            •    work to ensure that the expiration dates for a foreign person’s export
                 license, visa, and U.S. work authorization documents coincide.




64   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                    Interagency Export Controls Report


    The National Defense Authorization Act for FY 2000 requires that the Inspec-
    tors General for Commerce, Defense, Energy, and State conduct an annual
    review of U.S. government policies and procedures in preventing the export
    of sensitive technologies and technical information to countries and entities
    of concern. The topic of this year’s report, published in April 2004, was
    access to controlled technology and information by foreign nationals at U.S.
    companies and universities. The Inspectors General at Homeland Security
    and the Central Intelligence Agency also participated in this review.

    The interagency team

    •   concluded that federal departments could improve their outreach
        programs to raise awareness and understanding of export regulations
        regarding the release of export-controlled technology to foreign nation-
        als in the United States;

    •   found that reviews to ensure compliance with federal export laws and
        regulations needed improvement; and

    •   reported that some federal export license exemptions were broadly
        applied and might offer a means for a foreign national from a country of
        concern to circumvent regulations related to the release of export-
        controlled technology.

    We hope this interagency report will be useful to Congress and the Adminis-
    tration in shaping the future of export licensing policies and procedures.




                                     Peer Review


    To ensure that audit reports meet government auditing standards, OIGs
    conduct peer reviews of each other’s operations every three years. In 2004,
    OIG reviewed the quality control system for audits in the Social Security
    Administration’s Office of Inspector General (SSA-OIG). OIG provided SSA-
    OIG an unqualified, or clean, opinion on its audit operations. Similarly, the
    Department of the Interior, Office of Inspector General, provided an unquali-
    fied opinion in 2004 on this OIG’s audit function.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   65
                                         HIV/AIDS Initiative


            In January 2003, the administration announced the President’s Emergency
            Plan for AIDS Relief (PEPFAR), a five-year, $15 billion initiative to combat the
            global HIV/AIDS pandemic. OIG, along with the Office of Inspector General at
            the U.S. Agency for International Development (USAID), is leading an effort
            to ensure adequate oversight of PEPFAR funds and adequate coordination
            of OIG work. While the President’s coordinator for this effort is located in the
            Department, funding is provided to several other agencies, primarily USAID
            and the Department of Health and Human Services. The coordination of the
            agency OIGs will ensure comprehensive audit coverage and avoid duplica-
            tion of effort.




66   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                       INFORMATIONTECHNOLOGY
                      INFORMATION TECHNOLOGY




     OIG evaluates information management (IM), information systems security, and information
technology (IT) in the Department through a program of audits, inspections, and reviews. During this
reporting period, OIG completed an audit of the planning for replacing the Department’s antiquated
messaging system. OIG also inspected the information management policies, procedures, and practices
and the information systems security management at eleven overseas missions – Abu Dhabi, United
Arab Emirates; Ankara, Turkey; Athens, Greece; Bangkok, Thailand; Doha, Qatar; Kuwait, Kuwait;
Maseru, Lesotho; Mbabane, Swaziland; Muscat, Oman; Nicosia, Cyprus; and Pretoria, South Africa –
and two domestic bureaus, the Bureau of East Asian and Pacific Affairs and the Bureau of International
Information Programs. OIG also issued inspection reports on two of the four regional information
management centers (RIMCs) – Bangkok and Pretoria, one report on the Bangkok Financial Service
Center, and three information systems security reports on Bucharest, Romania; Sofia, Bulgaria; and
London, England. Finally, OIG used the results of the audit and inspection processes to prepare the
mandated reports to the Congress and the Office of Management and Budget on the OIG evaluation
of the information system security program at the Department of State.




Review of the Information Security Program at
the Department of State (IT-A-04-08)

     OIG found that the Department has taken a number of actions directed at improving the
effectiveness of the Department’s information security program since last year’s independent evaluation.
For example, the Department implemented a bureau-level Department FISMA scorecard. This
performance scorecard, shared internally with senior management, is a one-page snapshot of a bureau’s
progress in information assurance. The Department has deployed an automated application tool to be
used by the bureaus in an effort to automate the FISMA reporting process. Further, the Department
developed a web-based training tool that is used to meet the requirement that all employees receive
annual IT security awareness briefings. By using this web-based tool, the Department has the ability to
track completion of annual awareness briefings electronically for each employee worldwide.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         67
             The Department has improved its Plans of Action and Milestones (POA&M) process at
        headquarters since last year’s evaluation. Restructuring of the certification and accreditation process,
        automation of FISMA data submissions, and the development of a draft POA&M process guide have
        been instrumental in helping the Department improve identification of its IT security vulnerabilities and
        address these issues through the POA&M process. In addition, the Department undertook an 18-
        month project to certify and accredit its major applications and general support systems. As of the first
        week in September, the Department had processed and approved 92 percent of the general support
        systems and major applications included in the project. The 18-month project has been coordinated
        with OMB, and has moved the Department constructively forward to begin meeting FISMA
        requirements in a key area where it previously had been failing.

            However, OIG found several key areas that still require senior management attention. The
        Department has not adequately coordinated and shared information with relevant Department parties,
        such as Critical Infrastructure Protection (CIP) officials, involved in identifying and addressing IT security
        vulnerabilities for the POA&M process. At the time of this evaluation, the Department had not
        developed procedures to ensure that IT security findings were being addressed in the POA&M process
        nor had it extended the process to include its domestic and overseas sites.

             Further, the Department inventory of IT systems remains incomplete and needs to be updated by
        the responsible Department officials, as required by FISMA. The Department lacks procedures to
        identify the number of contractor services or facilities performing work for the Department using their
        own systems or connecting to the Department networks. The Department’s patch management
        program needs improvement. Patch management roles and responsibilities still remain unclear to post
        officials, and posts are unsure of the procedures for installing patches or obtaining assistance.

             The Department continues to fragment responsibility for information systems security and to date
        has developed no effective coordinating or monitoring mechanism to ensure that delegated
        responsibilities are effectively accomplished. Further, the implementation of information security at
        overseas posts requires increased Department attention.




        Phase I of Department of State’s Approach to
        Establishing a New Messaging System
        (IT-A-04-05)

             The Department’s State Messaging and Archive Retrieval Toolset (SMART) is designed to replace
        the Department’s legacy messaging systems with a single system that provides modern messaging,
        archiving, and information sharing at the desktop. The SMART project management office (M/SMART
        PMO) within the Under Secretary for Management has been leading efforts to acquire and deploy a




68   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
simple, secure, and user-driven system to support the conduct of diplomacy through modern
messaging, archiving, and information sharing. The initiative meets one of the five top goals in the
Department’s Information Technology Strategic Plan: to develop a modern communications system for
reliable, secure, and flexible exchange of formal and informal memoranda, information, and records,
operating in an Internet-like environment within the Department and across the interagency community.

     OIG found that Phase I approach for developing SMART was based on adequate analysis of the
mission and business processes that the system is intended to support. M/SMART PMO conducted
surveys to compile system and user requirements, which were then prioritized during the prototype
evaluation and vendor selection phases. These requirements were based on input from a range of users
and functions across participating offices and bureaus. Security requirements for the initiation phase have
been adequately addressed in the Security Classification Guide of November 2003. OIG has no
recommendations at this point but plans to review SMART again after subsequent phases are
completed.

    gain after subseq




    OIG found many opportunities for improving IT security and IM at all overseas missions and
bureaus. For information systems security, OIG reviewed controls including IT security and IM policies,
procedures, activities, and hardware and software configuration settings. In general, the missions and
bureaus could significantly improve the following:

•   Management controls by ensuring the separation of duties required for independent information
    systems security oversight.

•   Operational controls by increasing the monitoring of information systems to prevent
    inappropriate use.

•   Technical controls by complying with the Department’s configuration standards.

     Listed below are summaries of representative IT inspections during this reporting period. OIG
discussed the results and the recommendations with appropriate embassy and Department officials who
concurred with the recommendations.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004            69
        Embassy Abu Dhabi and Consulate General
        Dubai, United Arab Emirates (ISP-I-04-19A)

            The information management section is in the process of establishing the required information
        processing and handling systems at the NEC. Compounding the problems facing the information
        technology section is the imminent transfer of key personnel.




        Embassy Ankara, Turkey, and Constituent Posts
        (ISP-I-04-20A)

             The embassy is responsible for three constituent posts – with differing information technology and
        communication needs. Its responsibilities range from supporting over 200 customers in the embassy to
        an American Presence Post with one officer. Visits are ad hoc and generally deal with a specific problem.
        OIG suggests that the information management staff meet periodically to share ideas, solutions, and
        plan for the future. More information should be developed in coordination among the various sites.
        For example, if each site is designated as a backup for the other, specifics need to be outlined that
        determine what work will be processed, who is responsible, and the schedule for running such work.
        None of these have been identified. Finally, Consulate General Istanbul and Embassy Ankara are
        developing contingency plans independently without mutual consultation.

             Support from regional functions and Washington is spotty. Confusion remains over the roles and
        responsibilities of regional and Washington-based groups including the Regional Information
        Management Center Frankfurt, the Bureau of Information Resource Management Customer Support,
        and the Diplomatic Telecommunications Service Program Office. In general, technical support has been
        adequate but training, administrative support, and coordination needs improvement. At the policy and
        higher levels much improvement is needed. Because of the time differences the Bureau of Information
        Resource Management’s Help Desk has not been very effective in resolving software problems.


             Embassy Ankara has designated an employee at Consulate General Istanbul as the mission
        Information System Security Officer (ISSO). OIG agrees in principle with the concept of a mission-wide
        ISSO given the appropriate responsibility with the concomitant resources. However, the embassy has
        not adequately described his responsibilities. Further, the individual has not been given a budget to
        perform any analyses.




70   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Embassy Athens, Greece and Consulate General
Thessaloniki (ISP-I-04-21A)

     There is a clear need for an information systems security officer to monitor system activity
constantly. To correct errors in software, new instructions called patches are applied where the software
has faults. Three patches have been identified as high risk, but one is not available. The two high-risk
patches are available for implementation, but only one has been implemented. In some cases, if a patch
is not implemented a post may be subject to removal from the network. None of the patches identified
as low or medium risk have been implemented.


     Embassies are permitted to implement software for special needs. The special software must be
approved by a local configuration control board that ensures the software does not interfere with regular
processing. The Department’s configuration control board must also be notified if local software is
implemented. Embassy Athens local configuration control board’s documentation does not comply
with Department guidance that requires test and evaluation reports. Recent requests have not had these
reports attached. There is no indication the control board has reported all locally approved software to
the Department.




Embassy Bangkok, Thailand, and Constituent
Post (ISP-I-04-22A)

     OIG identified several areas where information management and security controls should be
improved to ensure that the mission continues to meet information technology needs. Specifically, the
alternate information system security officer (ISSO) position should be reassigned to the information
system center to provide the primary ISSO with needed assistance to address security requirements. In
addition, a training program needs to be established for the help desk and information program center
(IPC) staff. Finally, the embassy should establish procedures for informing representatives of network
and system failures.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          71
        Embassy Kuwait, Kuwait (ISP-I-04-24A)

             The embassy needs to focus on a greater awareness of the importance of information technology
        security while promoting a greater understanding of information management. Inadequate separation
        of duties between operational and oversight activities exists.




        Embassy Mbabane, Swaziland (ISP-I-04-25A)

             Operating communications and information processing systems in Swaziland has its challenges.
        Electrical power and communications lines present additional difficulties in Swaziland. Embassy
        information systems are subject to frequent power surges as well as lightning strikes that cause outages
        and have damaged servers in the past. This is a particular problem during the rainy season. Telephone
        lines are equally problematic, and likewise more so during the rainy season. Tie lines to offsite locations,
        including the Ambassador and DCM’s residences, general services office (GSO) compound, and public
        diplomacy building, are frequently out of service, and during the rainy season are generally inoperable.

             Network topology diagrams, physical wiring diagrams, and documentation of telecommunications
        lines are incomplete. Post does not have detailed systems activity and maintenance logs.




        Embassy Muscat, Oman (ISP-I-04-26A)

             The information management section’s customer service record is mixed but improving. The hours
        maintained by the section, and Washington response time, and the lack of a customer service ethic, have
        been areas of concern. ICASS service standards do not explicitly outline the normal duty hours for
        information technology support. The section is in the process of redrafting the ICASS standard to
        accurately reflect support hours for embassy personnel.




72   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Embassy Nicosia, Cyprus (ISP-I-04-27A)

     There are many examples of forward-thinking projects underway to improve customer service and
system performance. But these plans have not been incorporated into an overarching mission strategic
plan encompassing operational, technical, and staffing needs for the next three to five years. Thus, the
cost of major infrastructure changes are not included in the embassy’s budget and will create significant
problems when such costs are identified and must be funded by the embassy. For example, the embassy
is upgrading the telephone system. The training costs and post preparation costs of $18,000 come out
of post’s operating budget and were not planned as the post was unaware of these costs until the arrival
of the survey team in February/March 2003. Other infrastructure changes include upgrading the
unclassified backbone in April of 2004 (which is included in the MPP) and upgrading the servers in
October of 2004.

     Most weaknesses in systems operations identified during the inspection are due to inadequate
information and guidance from the Department. In May 2003, a team from the Department’s Office of
Information Assurance performed a site certification and accreditation review of the classified and
unclassified networks. The embassy received this report in March 2004. However, this report did not
identify the need for detection systems at the offsite locations, nor did it note corrective actions taken by
the embassy when the team was on-site.

     Inadequate segregation of duties may pose an internal control problem without defined standard
operating procedures. Development of written procedures to implement the information systems
security officer duties, and procedures for ongoing monitoring of state systems, are needed to ensure
transparency. Also, work requirements statements did not include information systems security as a key
element for the information systems security officer and the alternate.




Inspection of Embassy Pretoria, South Africa,
and Constituent Posts (ISP-I-04-28A)

     The IM section is a cohesive unit that works well together and is proactive in identifying deficiencies
in the program and finding effective ways to resolve them and improve service to customers. However,
insufficient resources and problems in communication and coordination with the executive office and
other agencies at post are impeding progress. IM’s role as a support provider to other posts within the
region is not clearly defined and places further strains on resources. These strains will be compounded
by current expansion plans that will require service for additional users and connectivity for additional
locations, without corresponding expansion of IM staff.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004              73
             The IM section’s responsibility for providing systems support to six other posts in the region
        presents a considerable strain on the resources of Embassy Pretoria. Although the AF bureau provides
        funding for the support provided by Pretoria, having IM staff away on temporary duty leaves the IM
        section understaffed and often unable to complete important projects. While the IM section cooperates
        with the Regional Information Management Center, the relationship between the two in terms of
        responsibility for providing regional support is often unclear. Staffing patterns within the region are
        similarly unclear, given that IM staff members from Pretoria often serve temporary duty to provide
        technical expertise to a post that actually has a better user-to-systems staff ratio.

             The IM section has been having communication and coordination difficulties with other sections
        and other tenant agencies. The other agencies have been buying their own computer equipment and
        asking the IM section to service it, which is difficult because it is generally different from the standard
        baseline equipment from the Bureau of Information Resource Management. Other agencies also do not
        provide any check-out information when employees leave, which creates difficulties in deleting user
        accounts and updating the custom mail recipients’ list. Additionally, the IM section is not being
        sufficiently notified in advance of projects affecting infrastructure. A current example is a planned office
        move that will place ten employees in a space with only two network drops; IM was not notified of the
        planned move to allow appropriate planning and changes in the network architecture. Similar daily ad
        hoc requests circumvent the help desk or proper channels and further strain the IM section.




        Bureau of East Asian and Pacific Affairs (ISP-I-04-30)

            Contingency planning is designed to ensure continuity of operations under adverse conditions.
        Contingency planning also addresses the ability to recover from a disruption and provide service to meet
        the minimal needs of users. OIG recommended that the Bureau of East Asian and Pacific Affairs
        develop and implement a contingency plan for its unclassified and classified information systems.




        Bureau of International Information Programs
        (ISP-I-04-31)

             OIG identified several issues for action by IIP officials: 1) lack of consistent communication and
        lack of coordination between employees in International Information Programs/Educational and
        Cultural Affairs/Information Technology (IIP-ECA/IT), which has some times resulted in poor project



74   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
planning and performance accountability; 2) some configuration settings that are outside of the baseline
standards; 3) adequate identification of user requirements during the development phase of a project,
which is essential to the project’s success; and 4) development and documentation of patch management
procedures.




Embassy Maseru, Kingdom of Lesotho (ISP-I-04-32)

     A system topology diagram depicting the interconnections of the sensitive but unclassified system
can assist maintenance personnel. OIG recommended that Embassy Maseru, in coordination with the
Bureau of Information Resource Management, create system topology diagrams for the sensitive but
unclassified system.




Regional Information Management Center
Pretoria (IT-I-04-06)

     RIMC Pretoria, one of the four regional centers, provides excellent support for emergency or crisis
situations to the 40 posts within its geographic region. Although management makes the best use of
limited resources, current staffing does not allow timely resolution of non-emergency problems, and
preventive maintenance is not a consideration.

      Much can be done to improve the support provided to posts within Africa. Several entities provide
regional support within the area, including RIMC Pretoria, RIMC Frankfurt, and embassies with
assigned regional responsibilities. To prevent overlap in some areas and inadequate attention to others,
the roles and responsibilities of these entities need to be clearly defined and documented. IRM should
provide RIMC Pretoria with temporary staff resources to support the Department’s antiterrorism efforts
in its geographic area and to maintain continuing activities. RIMC Pretoria management needs to
identify and ensure that technicians have the requisite training prior to their arrival at the RIMC. Finally,
the RIMC satellite branch offices should be relocated to areas more accessible to commercial
transportation.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004              75
        Regional Information Management Center
        Bangkok (IT-I-04-04)

             The Bureau of Information Resource Management (IRM) provides telecommunications, network,
        systems engineering, installation, and maintenance support to U.S. embassies and consulates worldwide
        through four regional telecommunications support centers. RIMC Bangkok, one of the four regional
        centers, provides adequate support to the 58 posts within its geographic region.

             To ensure continued adequate support to the posts, RIMC Bangkok and IRM must address several
        issues. Specifically, IRM should provide RIMC Bangkok with temporary staff resources to support the
        Department’s antiterrorism efforts in its geographic area. To ensure appropriate contractor oversight,
        RIMC Bangkok needs a copy of the service contract for telecommunications support. RIMC Bangkok
        management needs to identify the training necessary for each staff member to perform effectively and
        then ensure that the training is taken. Further, RIMC Bangkok management needs to improve top-
        down communications with staff. Finally, Travel Manager needs to be used for processing travel
        authorizations and vouchers.




        Bangkok Financial Service Center (ISP-I-04-29)

             The lack of clearly separated roles and responsibilities within the BFSC information management
        and information systems security officer /programming divisions has the potential to impact negatively
        the internal controls of financial applications. The IM division is responsible for computer operations
        and the networks that support the financial applications. The ISSO/programming division is
        responsible for development of the RFMS/D (Disbursing) and is headed by the ISSO. Overall, the
        separation between the two divisions and the corresponding roles and responsibilities of the two
        divisions are unclear in many cases. The rationale for assigning operational control and security oversight
        of the three network domains is similarly vague.

            The financial applications in use have limitations on functionality and internal control
        vulnerabilities. For example, the local area network Serviced Post Financial Management System, the
        other RFMS feeder system, was granted interim authority to operate despite weaknesses that are still
        pending remediation.




76   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Information Technology Security Inspections of
Embassy Bucharest, Romania (IT-I-04-01),
Embassy Sofia, Bulgaria (IT-I-04-02), and
Embassy London, United Kingdom (IT-I-04-03)

    The Office of Inspector General inspected the management, operational and technical information
technology security controls implemented by the missions. These controls involved IT security policies,
procedures, activities, and software and hardware settings.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004        77
78   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                   INVESTIGATIONS
                                  INVESTIGATIONS




THEFT OF GOVERNMENT PROPERTY

     OIG received information that a private citizen was selling computers and office equipment bearing
U.S. Department of State property tags on the Internet and at yard sales he was holding at his residence.
A joint investigation conducted with the Coral Springs, Florida, Police Department determined that the
private citizen had obtained the property from the Department’s Regional Procurement Support Office,
Florida Regional Center, under false pretenses. The property in question had been classified as excess,
and was supposed to have been donated to a charitable organization. The investigation determined that
the subject of the investigation misrepresented himself as belonging to the charitable organization that
was supposed to receive the property.

     A search warrant of the subject’s residence resulted in the recovery of $30,543 in stolen U.S.
Government property. Furthermore, records obtained from the Internet company showed that the
subject had earned an additional $5,562 in proceeds from illegal sales of U.S. Government property. The
subject was subsequently arrested and pled guilty to a 3rd Degree Grand Theft Felony Charge under State
of Florida code. He was sentenced to two years probation and ordered to pay $373 in court costs.



FALSE CLAIMS
     OIG received information that a Foreign Service Officer assigned to a U.S. Embassy overseas
submitted a false travel voucher for emergency home leave. The voucher included a receipt in the
amount of $2,584 for lodging expenses at a Virginia bed and breakfast. Embassy officials were unable
to verify the bed and breakfast as a legitimate business, and as a result the voucher was never actually
paid. OIG’s investigation determined that the lodging receipt submitted by the officer was fabricated
and that the officer and his spouse had actually stayed at a friend’s residence during their home leave,
making them ineligible for lodging reimbursement. On April 12, 2004, the officer received a 30-day
suspension for filing a fabricated receipt to the Department for travel reimbursement.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004          79
              OIG conducted a joint investigation with the Bureau of Diplomatic Security (DS) who reported
        that a DS special agent filed a travel voucher claiming $1,058 reimbursement for expenses that he was not
        entitled. Investigation confirmed that the DS agent went to his supervisor who denied approval of the
        travel voucher because the DS agent was not eligible. The investigation also confirmed that the DS agent
        went to another DS supervisor and had him approve the travel voucher by not informing him that the
        first DS supervisor had declined to authorize payment because he was not eligible to receive
        reimbursement for the expenses claimed. When interviewed, the DS agent admitted that he knowingly
        sought and received payment by having a DS supervisor approve the travel voucher by not informing
        him that the first DS supervisor had denied approval because he was not eligible for reimbursement of
        the expenses. OIG sent a report of investigation to the Department’s Bureau of Human Resources,
        which on June 4, 2004, recommended a five-day suspension for the DS agent.




             OIG conducted an investigation of a senior Foreign Service Officer who applied for and received
        Separate Maintenance Allowance (SMA) payments for her spouse and child despite the fact the her
        dependents were residing in the city to which she was assigned. The investigation determined that the
        total amount of improper payments received by the officer was $8,822. On September 8, 2004, the
        Department’s Bureau of Human Resources proposed a five-day suspension for the officer. The Civil
        Division of the Department of Justice accepted the case, and a civil settlement with the officer is
        pending.




              OIG conducted an investigation of a Department of State employee stationed overseas who
        falsified Separate Maintenance Allowance (SMA) documents in order to receive payments for family
        separation. The employee claimed her husband as an eligible family member living in the United States
        in order to receive the SMA. However, the investigation determined that the employee’s husband was
        not living in the U.S. and was instead detailed overseas for the U.S. government during the time period
        that the employee claimed eligibility for SMA. The investigation determined that the employee
        deliberately failed to disclose this information on her SMA application and was ordered to pay a total of
        $7,284.48.




        EMPLOYEE MISCONDUCT
             OIG received information that a senior Foreign Service Officer assigned at a U.S. Embassy overseas
        routinely used embassy vehicles for personal errands without reimbursing the Department as required.
        OIG’s investigation determined that the officer extensively used embassy vehicles for personal reasons,
        including driving to and from the embassy, transporting the officer’s children to school and transporting



80   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
relatives to and from the airport. The calculated cost of using the embassy vehicles for these purposes
amounted to approximately $7,100. On August 27, 2004, the Bureau of Human Resources proposed a
60-day suspension for the officer.



FORGERY
     OIG opened a joint investigation with the Department of Homeland Security, Office of Inspector
General, and the Internal Revenue Service, into allegations that a Detention Enforcement Officer forged
numerous documents, including letters on official Department of State letterhead in the name of a
Department employee, for the purpose of defrauding various insurance companies. OIG provided
support for the investigation, including conducting a DNA test on envelopes handled by the Detention
officer. On September 2, 2004, the Detention Officer was arrested in Elizabeth City, New Jersey, and
charged with one count of embezzlement and one count of impersonation. The court case is currently
pending in Federal District Court in New Jersey.




VISA FRAUD
     OIG conducted a joint investigation with the Bureau of Diplomatic Security, (DS) Visa Fraud
Branch, of an Immigrant Visa Chief at a U.S. Embassy overseas. This individual married another
woman while still married to his first wife and then petitioned for immigrant visas for his second wife
and her son. This individual provided false documentation that included a divorce certificate to the
Department of Homeland Security to have the petitions expedited and approved. As a result of the
investigation, the Immigrant Visa Chief was relieved of his duties and returned to the United States
where he was subsequently arrested on visa fraud charges. This individual has agreed to plead guilty to
one count of visa fraud, but a court date for the plea has not yet been set.



     OIG joined a joint investigation with DS and Federal Bureau of Investigation involving a former
management officer and consular associate at a foreign embassy that were suspected of alien smuggling
and visa fraud. OIG was asked to investigate allegations involving voucher fraud by the same
employees. OIG investigators and auditors discovered approximately 13 incidents of voucher fraud.
On May 1, 2004, the subjects pleaded guilty to charges of alien smuggling and visa fraud that included
an agreement to forfeit $750,000 in assets. Sentencing is pending.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004        81
        EMBEZZLEMENT
             OIG conducted an investigation of a Department of Labor employee who continued to receive a
        salary from the Department of State a year after his temporary duty assignment with the Department
        expired. The Labor employee returned to Labor and began receiving salaries from both Departments,
        which were deposited directly into his bank account. In June 2004, the employee was placed into pre-trial
        diversion, and agreed to repay the Department a total of $78,616 in salary payments and to complete 200
        hours of community service.




        FOLLOW-UP ACTIONS


        PROPOSAL FOR DEBARMENT

              OIG previously reported the investigation of a company that provided explosive ordnance detector
        dogs and handlers to the Department of State and other government agencies in the wake of the
        September 11, 2001 terrorist attacks. The investigation disclosed that the company had provided false
        information concerning the qualifications of its dogs and handlers. As a result, the owner of the
        company was convicted and sentenced to 78 months imprisonment; three years supervised release and
        restitution in the amount of $708,450.78. The Department of State has placed the owner and his
        company on the list of parties proposed for debarment. This action excludes the owner and his
        company from Federal Procurement and Nonprocurement Programs. (See OIG Semiannual Report,
        April 1, 2003 to September 30, 2003)




        EMBEZZLEMENT

            OIG previously reported a joint investigation with the Federal Bureau of Investigation of the theft
        of $2.7 million in post assignment travel funds by a former FSN employee at U.S. Embassy Lusaka,
        Zambia, that resulted in the arrest and indictment of three Zambian nationals involved in the scheme.
        On February 24, 2004, the Zambian Police Service charged the former FSN embassy employee and the
        two Zambian nationals involved in this scheme under a 114-count criminal indictment.




82   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
     On August 3, 2004, Zambian prosecutors consolidated some of the charges and dismissed others
that resulted in a superseding indictment totaling 72 counts against the three defendants. An OIG
investigator testified once and will testify again at the end of October 2004 in the trial of the two
Zambian national defendants and his testimony in the trial of the former FSN employee is scheduled in
November 2004.

     A fourth Zambian national defendant sentenced on November 8, 2002, to 30 months incarceration
and three years supervised release for his part in this scheme was released from U.S. Federal prison and
deported to Zambia on June 22, 2004, where he was arrested by Zambian authorities for the theft of
over $1 million from Zambian companies. The arrest was made after the OIG investigator provided
evidence to the Zambian police that this person was involved in the theft of monies from the Zambian
companies. (See OIG SemiAnnual Report, October 1, 2003 to March 31, 2004)




Types of Cases




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         83
        Geographic Distribution of Ongoing
        Investigations
                                               South Asian .................................................0%
                                              Near Eastern..................................................5%

                                              East Asia and Pacific Islands .........................5%
                                               Africa ......................................................... 13%

                                               Europe ....................................................... 10%

                                               Western Hemisphere .................................7%

                                               Domestic ................................................... 60%
                                              TOTAL....................................................100%



        Hotline
            The OIG Hotline, operated by the Office of Investigations, is a prompt, effective channel for
        employees and others to report incidents of fraud, waste, abuse, and mismanagement to the Inspector
        General. Below is a summary of Hotline activity for Department and BBG.




                        Held for action within OIG                 7

                        Referral to other offices for action     152

                        No action Necessary                       85

                        Total Allegations received               244




84   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
           APPENDIX 1: INVESTIGATIVE ACTIVITIES


ad                                                   Total Judicial Actions          16
Workload                                            Total Judicial Actions                34

Cases pending 3/31/04                     48        Criminal
New cases opened                          27        Prosecutive referrals                  11
Cases closed                              15        Prosecutive declinations               11
Cases pending 9/30/04                     60        Prosecutive dismissals                  0

Preliminary inquiries pending 3/31/04     15        Acquittals                            0
Preliminary inquiries opened               7        Indictments                           2
Preliminary inquiries closed              13        Convictions                           5
Preliminary inquiries                               Sentencings                           3
      converted to cases                   2        Time sentenced                12 months
Preliminary inquiries pending 9/30/04      7        Time probation                24 months

                                                    Court-ordered fines                   $0
Total Administrative Actions              10        Court-ordered restitutions    $78,615.65

Admonishments                              0        Civil
Counseling                                 0        Referrals                               1
Curtailment                                0        Declinations                            0
Demotions                                  0        Complaints                              0
Reimbursements                             0        Judgments                               1
Reprimands                                 0        Court-ordered fines                    $0
Resignations                               0        Recoveries                              0
Suspensions                                4        Total judgments
Terminations (DOS employees)               0         and recoveries                        $0
Terminations (Contract employees)          0
Administrative referrals                   6
Program Fraud and
  Civil Remedies Act referrals             0
Savings                                    0




                   Administrative recoveries                       $ 37,827.26
                   Judicial recoveries                             $ 78,615.65
                   Total Investigative Recoveries                 $ 116,442.91




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   85
                           APPENDIX 2: REPORTS ISSUED




86   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                    APPENDIX 2: REPORTS ISSUED




                        Security and Intelligence Oversight

Inspections

SIO-I-04-19A            Security Inspection of Embassy Abu Dhabi, and                        07-04
                        Consulate General Dubai, United Arab Emirates

SIO-I-04-20A            Security Inspection of Embassy Ankara, Turkey, and                   06-04
                        Constituent Posts

SIO-I-04-21A            Security Inspection of Embassy Athens, Greece, and                   06-04
                        Consulate General Thessaloniki

SIO-I-04-23A            Security Inspection of Embassy Doha, Qatar                           06-04

SIO-I-04-24A            Security Inspection of Embassy Kuwait, Kuwait                        05-04

SIO-I-04-25A            Security Inspection of Embassy Mbabane, Swaziland                    07-04

SIO-I-04-27A            Security Management Review, Embassy Nicosia, Cyprus                  07-04

SIO-I-04-28A            Security Inspection of Embassy Pretoria, South Africa,               07-04
                        and Constituent Posts

SIO-I-04-36A            Security Inspection of Embassy Beijing, China                        09-04

SIO-I-04-38A            Security Inspection of Embassy Hong Kong, China                      09-04

SIO-I-04-39A            Security Management Inspection of Embassy Prague,                    09-04
                        Czech Republic

SIO-I-04-40A            Security Management Review of Embassy The Hague,                     09-04
                        The Netherlands

SIO-I-04-42A            Security Inspection of Embassy Addis Ababa, Ethiopia                 09-04

SIO-I-04-43A            Security Inspection of Embassy Asmara, Eritrea                       09-04

SIO-I-04-44A            Security Management Review of Embassy Djibouti,                      09-04
                        Republic of Djibouti




  Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   87
        Compliance Follow-Up

        SIO-C-04-22A              Security Compliance Follow-up Review of Embassy            05-04
                                  Bangkok, Thailand

        SIO-C-04-26A              Security Compliance Follow-up Review of Embassy            07-04
                                  Muscat, Oman

        SIO-C-04-46A              Security Compliance Follow-up Review of Embassy            09-04
                                  Khartoum, Sudan

        SIO-C-04-49A              Security Compliance Follow-up Review of Embassy            09-04
                                  N’Djamena, Chad, and Embassy Bangui, Central
                                  African Republic

        SIO-C-04-52A              Security Compliance Follow-up Review of Embassy            09-04
                                  Yaoundé, Cameroon, and Constituent Post

        Special Reviews

        SIO-S-04-06               Review of New Embassy Construction –                       04-04
                                  Embassy Beijing

        SIO-S-04-15               Review of the Implementation of the Department’s           07-04
                                  Lock-and-Leave Policy and Procedures

        SIO-S-04-18               Review of the Department’s Patterns of Global              09-04
                                  Terrorism – 2003 Report



                                          Office of Inspections

        ISP-I-04-19A              Inspection of Embassy Abu Dhabi and Consulate              07-04
                                  General Dubai, United Arab Emirates

        ISP-I-04-20A              Inspection of Embassy Ankara, Turkey, and                  06-04
                                  Constituent Posts

        ISP-I-04-21A              Inspection of Embassy Athens, Greece, and                  06-04
                                  Consulate General Thessaloniki

        ISP-I-04-22A              Inspection of Embassy Bangkok, Thailand, and               05-04
                                  Constituent Post

        ISP-I-04-23A              Inspection of Embassy Doha, Qatar                          06-04

        ISP-I-04-24A              Inspection of Embassy Kuwait, Kuwait                       05-04

        ISP-I-04-25A              Inspection of Embassy Mbabane, Swaziland                   07-04



88   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
ISP-I-04-26A             Inspection of Embassy Muscat, Oman                         07-04

ISP-I-04-27A             Inspection of Embassy Nicosia, Cyprus                      07-04

ISP-I-04-28A             Inspection of Embassy Pretoria, South Africa, and          07-04
                         Constituent Posts

ISP-I-04-29              Inspection of Bangkok Financial Service Center             05-04

ISP-I-04-30              Inspection of the Bureau of East Asian and Pacific         07-04
                         Affairs

ISP-I-04-31              Inspection of the Bureau of International Information      07-04
                         Programs

ISP-I-04-32              Inspection of Embassy Maseru, Kingdom of Lesotho           07-04

ISP-I-04-33              Improvements Needed in EEO Programs Overseas               04-04

ISP-I-04-34              Minimizing Cashier-Provided Accommodation                  07-04
                         Exchange Overseas

ISP-I-04-35              Management Assessment Review of Embassy Kabul,             06-04
                         Afghanistan

ISP-I-04-36A             Inspection of Embassy Beijing, China, and Constituent      09-04
                         Posts

ISP-I-04-37A             Inspection of Embassy Berlin, Germany                      09-04

ISP-I-04-39A             Inspection of Embassy Prague, the Czech Republic           09-04

ISP-I-04-40A             Inspection of Embassy The Hague, The Netherlands,          09-04
                         and Consulate General Amsterdam

ISP-I-04-42A             Inspection of Embassy Addis Ababa, Ethiopia                09-04

ISP-I-04-43A             Inspection of Embassy Asmara, Eritrea                      09-04

ISP-I-04-44A             Inspection of Embassy Djibouti, Republic of Djibouti       09-04

ISP-I-04-45              Inspection of the Regional Support Center, Frankfurt,      09-04
                         Germany

ISP-I-04-46A             Inspection of Embassy Khartoum, Sudan                      09-04

ISP-I-04-48              Management Assessment Review of Embassy Bangui,             09-04
                         Central African Republic




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   89
        APPENDISP I 04 48      MANAGEMENT
        ASSESSMENT REVIEW OF EMBASSY BANGUI, 09-
                           04


        ISP-I-04-49A              Inspection of Embassy N’Djamena, Chad                      09-04

        ISP-I-04-52A              Inspection of Embassy Yaoundé, Cameroon                    09-04

        ISP-I-04-53               Review of the Consular Lookout and Support System          09-04

        ISP-I-04-54               Strengthening Leadership and Staffing at African           07-04
                                  Hardship Posts

        Compliance Follow-up

        ISP-C-04-47               Compliance Follow-up Review of Embassy Lisbon and          09-04
                                  Consulate Ponta Delgada, Portugal



                                     Office of Audits

        Iraq Oversight

        AUD/IQO-04-47             Review of Department of State Procurement Competitions to Support
                                  the Iraqi Police Training Program                         09-04

        AUD/IQO-04-48             Review of Cashiering Operations at Embassy Baghdad         09-04



        Contracts and Grants

        AUD/CG-04-27              Application of Agreed-Upon Procedures on Indirect          05-04
                                  Cost Rates Proposed by International Center for
                                  Journalists, Inc.

        AUD/CG-04-29              Application of Agreed-Upon Procedures on Indirect          06-04
                                  Cost Rates Proposed by Graduate School, USDA

        AUD/CG-04-30              Application of Agreed-Upon Procedures on Indirect          05-04
                                  Cost Rates Proposed by Nacel Open Door, Inc.

        AUD/CG-04-31              Application of Agreed-Upon Procedures on Indirect          05-04
                                  Cost Rates Proposed by National Council for
                                  International Visitors

        AUD/CG-04-32              Application of Agreed-Upon Procedures on Indirect          09-04
                                  Cost Rates Proposed by the Institute for Training and
                                  Development

        AUD/CG-04-33              Review of the World Relief Corporation Indirect Cost       06-04
                                  Rates for Fiscal Year 2002

        AUD/CG-04-34              Evaluation and Analysis of Cost/Schedule Data – Kabul      07-04
                                  Embassy Compound Project


90   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
AUD/CG-04-35             Review of the International Republican Institute            06-04
                         Indirect Cost Rates for Fiscal Years 1999, 2000, 2001,
                         2002 and 2003

AUD/CG-04-36             Application of Agreed-Upon Procedures on Claim for          08-04
                         General and Administrative Expenses on Travel Costs
                         by North American Telecommunications, Inc.

AUD/CG-04-39             The National Endowment for Democracy                        08-04

AUD/CG-04-40             Office of Anti-Terrorism Assistance, U.S. Department        07-04
                         of State, Evaluation of Financial Management
                         Activities, Report on Survey Results

AUD/CG-04-41             Factsheet on the Iraqi National Congress Support            07-04
                         Foundation

AUD/CG-04-44             Analytical Review of the Multinational Force and            09-04
                         Observers’ FY 2002 and FY 2003 Financial
                         Statements, and FY 2004 and FY 2005 Budgets

AUD/CG-04-49             Review of World Relief Corporation of National              09-04
                         Association of Evangelicals’ Refugee Reception and
                         Placement Program

Procurement, Property and Administrative Support

AUD/PPA-04-07            Review of the Bureau of Overseas Buildings                 05-04
                         Operations’ New Embassy Construction Program
                         Planning and Design Phase

AUD/PPA-04-22            Review of Diplomatic Telecommunications Service            04-04
                         Program Office Unexpended Balances for Fiscal
                         Years 1995-2002

AUD/PPA-04-37            Review of the Management of Compound Physical              08-04
                         Security Upgrades

AUD/PPA-04-45            Review of Allegations Concerning DynCorp                   09-04
                         International’s Worldwide Personal Protective
                         Services Contract in Afghanistan

Program Reviews

AUD/PR-04-24             Review of Export Controls for Foreign Persons              04-04
                         Employed at Companies and Universities

AUD/PR-04-25             Review of the International Traffic in Arms Regulations    07-04
                         Registration Fee Collection Process




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   91
                 A PPENDIX
        Financial Management         4: RESOLUTION OF REPORTS &
        AUD/FM-04-42                 RofECOMMENDATIONS
                                  Audit    the Controls Over the Move of Domestic
                                  Financial Operations to Charleston
                                                                                  09-04


        AUD/FM-04-43              Audit of the International Cooperative Administrative      09-04
                                  Support Services’ 2002 and 2001 Financial Statements


                                      Information Technology

        Inspections

        IT-I-04-01                Information Technology Security Inspection of              06-04
                                  Embassy Bucharest, Romania

        IT-I-04-02                Information Technology Security Inspection of Embassy      06-04
                                  Sofia, Bulgaria

        IT-I-04-03                Information Technology Security Inspection of Embassy      06-04
                                  London, United Kingdom

        IT-I-04-04                Information Technology Security Inspection of the          07-04
                                  Regional Information Management Center Bangkok

        IT-I-04-06                Information Technology Security Inspection of the          08-04
                                  Regional Information Management Center Pretoria

        Audit

        IT-A-04-05                Phase I of the Department of State’s Approach to           08-04
                                  Establishing a New Messaging System (SMART)

        IT-A-04-08                Review of the Information Security Program at the          09-04
                                  Department of State (FISMA)




92   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE
APPEAPE OF RESOURCES USE OF RESOURAPPENDIX 3: SAVINGS
 AND MORE EFFECTIVE USE  OF RESOURCESCESDIX 3: SAVINGS
                     OF RESOURCES
          AND MORE EFFECTIVE USE OF RESOURCES
                                                      Table 1

                             INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                     WITH QUESTIONED COSTS4


                                                       Number           Questioned            Unsupported
                                                      of Reports          Costs                 Costs

                                                                            (Dollars in Thousands)
      A.       For which no management
               decision has been made by
               the commencement of the
               reporting period                         12              12,592                       9,115

      B.       Which were issued during
               the reporting period                      4               3,800                       3,400

      C.       For which a management
               decision was made during the
               reporting period – based on formal
               administrative or judicial appeal
               (i) dollar value of disallowed costs
               (ii) dollar value of costs not
               disallowed

      D.       For which no management
               decision has been made by the
               end of the reporting period               16            16,392                        12,515

               Reports for which no management
               decision was made within 6 months
               of issuance                              12             12,592                        9,115




      4
       Questioned costs that are questioned by the OIG because of an alleged violation of a provision of a
      law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
      expenditure of funds; a finding that, at the time of audit, such costs are not supported by adequate
      documentation; or finding that the expenditure of funds for the intended purpose is unnecessary or
      unreasonable.



      Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004      93
                                   PREFACEISSUED
                  APPENDIX 2: REPORTS
                  APPENDIX 2: REPORTS ISSUED
                BROADCASTING
            APPENAPPENDIX 3: SBAVINGS
                                OARD OF   & GMOVERNORS
                                               ORE EFFECTIVE
                               Table 2
             USE OF RESOURCESDIX
                        INFORMATION   2: RTEPORTS  ISSUED
                                           ECHNOLOGY
                          INSPECTOR GENERAL ISSUED AUDIT REPORTS
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE5



                                                             Number                Dollar Value
                                                            of Reports            (in thousands)

        A.      For which no management decision has
                been made by the commencement of
                the reporting period.                          2                      670


        B.      Which were issued during the reporting         1                     1,800

                Subtotals (A + B)                              2                       670

        C.      For which a management decision was            1                     1,800
                made during the reporting period
                (i) dollar value of recommendations that
                were agreed to by management
                    -based on proposed management action
                    -based on proposed legislative action


                (ii) dollar value of recommendations
                that were not agreed to by management


        D.      For which no management decision
                has been made by the end of the
                reporting period                              2                         670

                Reports for which no management
                decision was made within 6 months
                of issuance.                                  2                         670

        5
         A recommendation that funds be put to better use is a recommendation by the OIG that funds
        could be used more efficiently if Department management took actions to implement and complete
        the recommendations, including: reductions in outlays, deobligation of funds from programs or
        operations; withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
        bonds; costs not incurred by implementing recommended improvements related to the operations
        of the Department, a contractor, or a grantee, avoidance of unnecessary expenditures noted in
        preaward reviews of contract or grant agreements; or any other savings which are specifically
        identified.

                                                AUDITS
94   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Significant Management Successes In
Implementing OIG Recommendations


     In its Inspection of Mexico City, Mexico, & Constituent Posts (ISP-I-03-50), September, 2003.
OIG recommended that the embassy prepare a revised staffing projection and list all mission positions
and functions not persuasively shown to be essential. In response to the recommendation, the embassy
established a 17-member rightsizing committee, drawing from a cross-section of the mission’s agencies
and sections. The committee produced a 60-page report with recommendations that tied rightsizing to
the seven major mission performance plan goals. The report was posted on Embassy’s intranet website
for comment and the Ambassador will use it to make decisions about rightsizing the mission.




                                              BRO




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004      95
96   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                   Office of Inspector General
                                                      October 29, 2004

MEMORANDUM

TO:                        Mr. Kenneth Y. Tomlinson, Chairman
                           Broadcasting Board of Governors


FROM:                      Cameron R. Hume
                           Acting Inspector General

SUBJECT:                   Semiannual Report to Congress,
                           April 1 to September 30, 2004

I am pleased to transmit to you the Office of Inspector General’s Semiannual Report to
the Congress for the period ending September 30, 2004.

During this period OIG inspected Broadcasting Board of Governors’ (BBG) operations, including
transmitting stations, marketing and program placement operations, and several foreign Voice of
America news bureaus. Among the recommendations arising from the inspections were calls for
human resource succession-planning for the International Broadcasting Bureau in Greece, recovery
of the 16-percent value added tax (VAT) in Germany since the transmitting station is losing more
than $500,000 to VAT annually, and for consultations with Embassy Djibouti to bring the
unexploded ordnance problem at the transmitting station to the attention of the government of
Djibouti.

OIG conducted an annual evaluation of the BBG’s information security program, as mandated by
the Federal Information Security Management Act of 2002 and found that BBG had made progress
by reorganizing its IT program, defining 24 major systems, and performing risk assessments. BBG
also had developed plans of action and milestones for ten of its 24 systems, for quarterly reporting
to the Office of Management and Budget (OMB). The first FY 2004 quarterly report to OMB under
the new structure identified 20 information security weaknesses, of which two have been corrected.
However, OIG remains concerned that BBG’s information security needs management attention.

In area of investigation, OIG followed up on a case of a senior BBG employee engaged in a conflict
of interest. The employee oversaw the disbursement of $92,000 in training grant funds to a grantee,
which then subcontracted with a company headed by the BBG employee’s spouse. The employee
pleaded guilty in U.S. District Court to one count of violating 18 U.S.C. 208 and was terminated
from his position. On May 6, 2004, the employee was sentenced to three years probation and 50
hours of community service. He was also fined $1000, ordered to pay restitution of $15,064 and had
to pay a $25 special assessment.

This report is required by the Inspector General Act of 1978, as amended, and covers the work of
this office during the period indicated. The Act requires that you transmit the report to the
appropriate committees of the Congress by November 30, together with any comments you may
wish to make.
          BROADCASTING BOARD OF GOVERNORS
                                        INSPECTIONS




Inspection of the International Broadcasting Bureau’s
Transmitting Station in Greece (IBO-I-04-05)

     The International Broadcasting Bureau’s (IBB) Greece Transmitting Station, with sites in Kavala
and Rhodes, is well managed. With a transmitter availability rate of 99.92 percent in December 2003, it is
meeting its mission to provide shortwave and mediumwave broadcasts to primary target areas in
Europe, Russia, Africa, the Caucasus, Central and South Asia, and Tibet. It transmits over 237 hours a
day in 33 languages for Radio Free Asia, Radio Free Europe/Radio Liberty, Voice of America, Middle
East Radio Network, and the Greek government’s Elliniki Radiofonia Tileorasi.

      The station faces an impending crisis in its workforce. Of the 92 Foreign Service nationals (FSN) at
the two sites as of January 2004, over half were at least 50 years old; many key managerial personnel are
scheduled to retire in the next few years. The station needs to train new people, but IBB announced a
hiring freeze through FY 2004. The Office of Inspector General recommended that IBB continue to
support the station with innovative ways to address its need for human resources. After the OIG site
visit, IBB reported that it would consider using a buildings-and-grounds maintenance contract to hire
“fill-in” employees for critical positions affected by the IBB worldwide FSN hiring freeze.

      The transmitting station property is leased from the Greek government. Over the years, local
citizens have populated one area of the Kavala leased land with various beach structures and a church.
An American supervisor estimated that the encroached area is about 11 percent of the total, with an
apportioned lease cost of over $46,000 annually. IBB is concerned about the safety of the area and
possible liability issues. OIG recommended that IBB modify its land lease agreement with the Greek
government, returning the encroached area to the government and seeking a guarantee from the
government to maintain the integrity of the remaining portion of the lease. IBB said that it would
address this issue in 2007, when the lease came up for renewal, but OIG believes that some interim
action is necessary.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004           99
              The station manager identified improvements needed in the station’s information technology
         infrastructure. The station is now about 80 percent finished with planned upgrades. The station’s
         computer management specialist learns new technology on the job, with assistance from the station
         manager. After the OIG inspection, he attended a week-long specialized training class. OIG agreed with
         the high priority of providing appropriate training to the computer management specialist.
         Supervisors at the Kavala and Rhodes stations provide a good management controls environment and
         demonstrate compliance with regulations. Beginning in November 2003, the station has scheduled one
         American supervisor to visit the site in Rhodes monthly to discuss operations and perform a checklist
         inspection.




         Inspection of Broadcasting Board of Governors’
         Operations in Thailand (IBO-I-04-06)

              There are four major entities of the Broadcasting Board of Governors (BBG) in Thailand: the
         Thailand Transmitting Station, the Regional Office of Marketing and Program Placement, the Voice of
         America (VOA), and Radio Free Asia (RFA). OIG found that they do not formally coordinate, nor do
         they believe there is a need for such coordination. The Thailand Transmitting Station is clearly the largest
         establishment, has the most extensively trained and experienced staff, and is the best managed of the
         four major BBG entities in Thailand.

              The initial agreements for the Thailand Transmitting Station, which date back to 1965, involved the
         broadcasting of VOA programming. Since RFA began broadcasting from points outside of Thailand in
         September 1996, the Royal Thai government has shown no interest in amending these agreements to
         include broadcasting of RFA programming, although Embassy Bangkok has pursued the matter
         occasionally with senior members of the Thai government. Although there have been a series of
         bilateral agreements relating to the Thailand Transmitting Station over the years and subsequent
         amendments, OIG could find no evidence that Embassy Bangkok ever formally received permission
         from the Thai Ministry of Foreign Affairs, by way of an exchange of diplomatic notes or other
         amendment, allowing the U.S. government to broadcast Radio Free Europe/Radio Liberty (RFE/RL)
         programs from the Udorn transmitter plant. Those broadcasts, nevertheless, began in 1995 and
         continue with the inclusion of Radio Farda programs.

              OIG found that the VOA Bangkok News Bureau and the International Broadcasting Bureau (IBB)
         Asia Regional Office of Marketing and Program Placement both need to improve their management
         controls regarding their separation of duties, and VOA also needs to improve its documentation. IBB
         Washington also has a role to play in ensuring a positive internal control environment. IBB is working
         to address these issues.




100   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
Inspection of the Broadcasting Board of
Governors’ Operations in the Republic of South
Africa (IBO-I-04-07)

    The Broadcasting Board of Governors’ operations in South Africa include the International
Broadcasting Bureau’s Regional Office of Marketing and Program Placement and a Voice of America
news bureau. OIG reviewed IBB’s regional office policy implementation, resource management, and
management controls. The primary focus was to determine IBB’s relationship to the U.S. mission in
South Africa, any concerns with the International Cooperative Administrative Support Services (ICASS)
support provided to the regional office and VOA, and IBB’s own assessment of the activities it
supports in Africa.

      The regional office oversees program placement in Angola, Burundi, Djibouti, Ethiopia, Kenya,
Lesotho, Madagascar, Malawi, Mauritius, Mozambique, Namibia, Rwanda, South Africa, Tanzania,
Uganda, Zaire, and Zambia. It has arrangements with 48 local broadcasting affiliate stations in 17
countries. The regional marketing director said that programming is going well in Angola, which receives
funding from the U.S. Agency for International Development, and in Uganda and Eastern Congo.
English-to-Africa and TV-to-Africa programs are particularly popular. There are challenges in some parts
of the region to airing BBG programming because of state control of the media or competition within
the liberalized media market. The office also experiences funding constraints for advertising, workshops,
and equipment installation.

     The regional office is collocated in Johannesburg with the Department of Commerce, U.S. Foreign
Commercial Service (FCS). The FCS has made plans to move into a new consulate general compound
when it is completed in about two years. The regional marketing director was unaware of these plans.
OIG is concerned that IBB has not made sufficient plans through Embassy Pretoria to relocate its
regional office. As a result of the inspection, IBB’s Office of Marketing and Program Placement (OMPP)
said that it would establish a relationship with the appropriate personnel at Embassy Pretoria in order to
obtain specifics about the embassy’s plans for future space and the impact of those plans on IBB’s
ICASS costs.

     The regional marketing director questioned ICASS costs from Embassy Pretoria in the area of
budget and planning services. OIG pointed out the need to clarify the budgeting services that the
embassy is providing IBB and to be sure that IBB is not paying for services that it does not receive.
After the inspection, OMPP reviewed the budget and financial planning services and held extensive
discussions with the embassy’s senior financial management officer. As a result, the embassy revised the
ICASS costs to reflect the actual services needed by IBB.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004           101
                    BROADCASTING BOARD OF GOVERNORS
              The VOA news bureau in Johannesburg covers South Africa, Namibia, Zimbabwe, Mozambique,
         and Zambia. The correspondents maintain a professional contact status only with official Americans at
                        INFORMATION TECHNOLOGY
         the mission in order to maintain journalistic independence. A memorandum of understanding
         between BBG and the Department helps to clarify the VOA relationships with the mission and the
         regional security officer.




         Inspection of the International Broadcasting Bureau’s
         Germany Transmitting Station (IBO-I-04-10)

              U.S. international civilian broadcasting in Germany dates from World War II. Over time it has
         changed from a collection of disparate elements to unified control by the IBB and from a focus on
         Western Europe and cold war targets to support for U.S. antiterrorism efforts, with a movement of the
         broadcasting center of gravity to the Balkans, the Caucasus, the Middle East, and Central and South
         Asia. A changed political environment and a coalition of environmentalists and opponents of U.S.
         policies and presence in Germany contributed to the closure of the Holzkirchen transmitter site and
         could threaten the functioning of the remaining three sites at Ismaning, Lampertheim, and Biblis. The
         management of the Germany Transmitting Station and Embassy Berlin need to develop a strategy to
         avoid that outcome. In the meantime, the IBB FM radio frequency in Berlin is underutilized, but could
         be an important tool in Embassy Berlin’s public diplomacy strategy. BBG is planning to take a step in
         that direction with a proposed change in the format of the Voice of America programming carried on
         the station.

              With capital assets valued at approximately $36.4 million, an FY 2004 program budget of
         approximately $12.2 million, and a staff of 74 (3 Foreign Service Officers, 64 locally enployed staff, and 7
         third country national personal services agreement contract employees), the Germany Transmitting
         Station has become a key part of the IBB transmitting network and Global Satellite Interconnect System.
         The Ismaning site, near Munich, has gone from being a shortwave site to a site where over-the-air
         broadcasting by medium wave only is minimal. Its role as a satellite downlinking and uplinking hub
         and mini-network control center is now its primary work, and without this capability, IBB would be
         hard-pressed to carry out its global transmission objectives. The Germany Transmitting Station has
         nurtured an automation team that has designed an automation system that has saved IBB millions of
         dollars. Staff of the Germany Transmitting Station manufacture the system’s hard components, write
         the computer software application, train others in its operation, and have installed the system in
         Germany and in IBB transmitting stations around the world. The Germany Transmitting Station also
         serves as a regional technical support center for several transmitting stations within the IBB network.
         Four members of the engineering staff function as members of the Technical Support Team. Other
         staff have temporarily supplemented the team. This team travels to other transmitting stations
         throughout the IBB system to provide technical support and training to staff at other transmitting
         stations.



102   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
     The Germany Transmitting Station is losing over $500,000 a year to a 16-percent value added tax
(VAT) from which it is actually exempt under the terms of the bilateral agreement for the operation of
the station. No refunds of the VAT have ever been received. Further, challenges to the diplomatic
status of IBB Foreign Service officers (FSO) have resulted in the denial of protections for their
dependents. OIG has asked that Embassy Berlin, in coordination with the Department of State’s Office
of Foreign Missions and the Germany Transmitting Station, work together to resolve these issues with
the German government.




Inspection of the International Broadcasting Bureau’s
Djibouti Transmitting Station (IBO-I-04-13)

     On April 1, 2004, the Broadcasting Board of Governors’ International Broadcasting Bureau (IBB)
transmitting station located outside of Djibouti, Republic of Djibouti, began transmitting Arabic
broadcasts of the Middle East Radio Network’s Radio Sawa. Radio Sawa, headquartered in Washington,
D.C., creates especially for Sudan the unique stream of programming known as the Sudan feed broadcast
from the Djibouti Transmitting Station. Although the transmission was developed primarily for the
Sudan stream of Radio Sawa it also reaches parts of Yemen, Djibouti, and Saudi Arabia.

       The U.S. government and the government of the Republic of Djibouti signed an agreement, dated
June 18, 2002, establishing the U.S. radio transmitting facilities in Djibouti on a 200,000-square-meter
site, located within 4 Kilometers of the country’s coast. This agreement allowed IBB to construct
facilities and install two FM and one medium wave transmitter to transmit IBB radio programs. An
annex to the agreement, known as PK 12 and signed on September 4, 2003, addressed the operation,
maintenance, and security of the transmission facility and site. PK 12 is also known as the Djibouti
Transmitting Station. The agreement also required IBB to provide transmitters (two newly purchased
medium wave (AM) broadcast transmitters and one existing high-frequency transmitter used for
shortwave transmissions), facility renovations, equipment replacement, spare parts for the first year of
operation, and training at the 20 year old Dorale Transmitting Station, about five kilometers from the
Djibouti Transmitting Station. The Dorale site is owned and operated by Radio Television Djibouti
(RTD) and no BBG/IBB programming originates from that site.

     The IBB Morocco Transmitting Station, located in Tangiers, provides management and contract
oversight and is tasked to review replacement part purchases, payment schedules, condition of IBB
furnished equipment, and so forth. Staff from Morocco and IBB Washington visit the Djibouti station
frequently. Some of the Morocco Transmitting Station’s technically qualified local staff are to be in
Djibouti for about one year to train RTD staff.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         103
                       BROADCASTING BOARD OF GOVERNORS
             IBB signed an International Cooperative Administrative Support Services (ICASS) agreement with
        Embassy Djibouti that provides assistance for temporary duty staff visiting from Morocco and
                       APPENDIX 1: INVESTIGATIVE ACTIVITIES
        Washington, D.C., including shipping, travel, cashiering, accounting, and other recordkeeping needs.
        Although the public diplomacy staff has occasionally been involved in the transmitting station activities,
        OIG saw no need for a permanent American direct-hire employee at the PK 12 transmitting station
        because IBB has the technology to control the Djibouti Transmitting Station remotely from either the
      Workload
        Morocco Transmitting Station or some other location under the supervision of IBB Foreign Service
        officers. Management controls such as access, maintenance, and inventory safeguards are in the hands of
        RTD, pursuant to the PK 12 agreement. There is no petty cash at the site, and inventory controls are in
        place. Staff from the IBB Morocco Transmitting Station also perform management oversight duties
        when visiting on temporary duty.

              The security requirements of the transmitter site are mitigated by the fact that IBB has no
         permanent, direct-hire staff in Djibouti. In 2002, Djibouti was declared free of land mines following
         international efforts to make the country mine-free. However, on May 6, 2004, just about one month
         after operations began, there was a fire and explosion at a remote area of the transmitter site caused by
         detonation of unexploded ordnance left from the era when the French used the beach to test weapons.
         Pursuant to a recommendation by OIG, IBB has consulted with Embassy Djibouti and is taking steps
         to have the government of Djibouti survey the site for unexploded ordnance and, after its removal or
         detonation, issue a certification that the site has been cleared.




         Inspection of the Broadcasting Board of
         Governors’ Operations in the Czech Republic
         (IBO-I-04-15)

              The inspection of the Broadcasting Board of Governors’ operations in the Czech Republic focused
         on the IBB Regional Marketing and Program Placement Office (RMPPO). Although OIG did meet
         with the president of Radio Free Europe/Radio Liberty (RFE/RL) and visited RFE/RL facilities, it did
         not conduct an overall inspection of RFE/RL. A separate classified OIG report (Security Inspection of
         Radio Free Europe/Radio Liberty Sites in Prague, Czech Republic (SIO-I-04-12) addressed the security posture
         and planned relocation of RFE/RL. OIG made no recommendations as a result of this inspection.

              RFE/RL is a private, nonprofit, U.S. government-funded broadcasting organization operating
         under a grant made and supervised by the BBG. It broadcasts over 1,000 hours of programming weekly
         in 30 languages to Southeastern and Eastern Europe, the Caucasus, and Central and Southwestern Asia,
         including both Iran and Iraq. The RFE/RL budget for FY 2004 is more than $77 million, up from
         approximately $59 million when the current RFE/RL President took office in August 1997. RFE/RL
         employs nearly 600 persons in Prague, including approximately 80 U.S. citizens. The organization
         employs over a thousand more people in the nations of its area of operations. As a private corporation




104   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
and a BBG grantee organization, RFE/RL and its employees do not come under the authority of the
chief of mission at Embassy Prague.

     The IBB RMPPO is collocated with RFE/RL. The RMPPO consists of a director, a deputy director,
four Foreign Service national positions, two contractors in Prague, and several contractors in other
countries in the area of operations. Discussions with RMPPO staff, including the new deputy director
and two of the Foreign Service nationals, revealed high morale and appreciation for the leadership of the
RMPPO director. The RMPPO and its personnel, unlike those of RFE/RL, are under chief of mission
authority. The RMPPO director manages an annual budget of $500,000 and pays out $2.8 million in
leases for VOA and RFE/RL. The leases are for broadcast time used for placement of VOA and RFE/
RL programming. The director spends about 40 percent of his time traveling, although funding
constraints have recently begun to limit travel and overall marketing activities.

     The RMPPO provides support for the placement and expanded reach of VOA radio, television, and
Internet products. The office currently has arrangements with 474 affiliates in 27 countries. It also
provides marketing assistance to RFE/RL. The RMPPO director reported that annual market surveys
show particular program success in Russia, Turkey, Bosnia and Herzegovina, Serbia (including Kosovo
and Montenegro), and Croatia. Programming in Ukraine has been difficult owing to political pressures
from the Kuchma government. A programming agreement was recently signed with Pakistan, but
operational success remains in question. RMPPO has a private affiliate television broadcast relationship
in Uzbekistan, but the government has been uncooperative in allowing radio affiliates. The
governments of Turkmenistan and Belarus refuse to allow affiliate relationships.

      The RMPPO director indicated that the office’s relationship with the various sections of Embassy
Prague was “very cordial and cooperative.” The director or his deputy attend country team and ICASS
meetings and plan to increase participation in embassy community events. Relations with Embassy
Prague public affairs officers are friendly, but have been limited since the RFE/RL Czech language service
was terminated in 2002. RMPPO receives embassy administrative support through ICASS. Key services
include budget and fiscal transactions, residential leasing, some maintenance, and payroll. The director
qualifies embassy administrative support as “very good” and is especially appreciative of budget and
fiscal support, which presents particular challenges because of the differing banking regulations and
procedures for payments in many of the countries in the target area. RMPPO describes its working
relationship with IBB Washington as excellent. There is daily e-mail, telephone, and fax communication.
RMPPO particularly appreciates the budget support and the free flow of ideas from Washington.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004           105
                     BROADCASTING BOARD OF GOVERNORS
                        APPENDIX 2: REPORTS ISSUED




106   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                       INFORMATION TECHNOLOGY




Review of the Information Security Program at
Broadcasting Board of Governors (IT-A-04-07)

     OIG’s evaluation of the BBG’s information security program concluded that BBG has made
progress in the past year in reorganizing its information technology program. As of May 30, 2004, BBG
appointed a Chief Technical Officer (CTO), a new Chief Information Officer (CIO), and a Chief
Information Security Officer. Additionally, BBG defined 24 major systems, performed risk
assessments, and developed: general support system and major application system security plans,
operating system security configuration standards, patch management policies, an incident response plan,
and a user information technology security training program. BBG has developed Plans of Action and
Milestones (PAO&M) for 10 of its 24 systems for quarterly reporting to OMB. The first FY2004
quarterly report to OMB under the new reorganization structure in July identified 20 information
security weaknesses, of which two have been corrected.

    Despite this progress, several key areas of information security still require management attention.
BBG’s CIO has not developed an agency-wide Enterprise Architecture as required by Federal
Information Security Management Act. Also, BBG’s transmitting stations need headquarters direction
and guidance to meet information security requirements.




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004         107
            BROADCASTING BOARD PREFACE
                                 OF GOVERNORS
      A   BROADCASTING
                1:        BOARDAOF  GOVERNORS
 APPENDIX 3: SAVINGS & MORE EFFECTIVE UA
       PPENDIX     INVESTIGATIVE  CTIVITIES SEPPENDIX 4:
                                               OF RESOURCES
             RESOLUTION               OF    REPORTS & RECOMMENDATIONS




108   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                               INVESTIGATI ON S




Follow-up Actions

     OIG received information from the Broadcasting Board of Governors (BBG), Office of General
Counsel that a senior BBG employee was engaging in a conflict of interest. The senior BBG employee
oversaw the disbursement of $92,000 in training grant funds to a grantee, which then subcontracted
with a company headed by the BBG employee’s wife. On January 14, 2004, the BBG employee pleaded
guilty in U.S. District Court to one count of violating 18 U.S.C. 208. Concurrently, the employee was
terminated from his position with BBG and was debarred from doing business with BBG for three
years. On May 6, 2004, the employee was sentenced to three years probation and 50 hours of
community service. He was also fined $1000, ordered to pay restitution of $15,064 and had to pay a $25
special assessment. (See OIG SemiAnnual Report, October 1, 2003 to March 31, 2004, pp. 83)




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004       109
                  BROADCASTING BOARD OF GOVERNORS




110   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
         APPENDIX 1: INVESTIGATIVE ACTIVITIES



                   Workload                                       Number

                   Cases pending 3/31/04                              3
                   New cases opened                                   0
                   Cases closed                                       2
                   Cases pending 9/30/04                              1

                   Preliminary   inquiries pending 3/31/04            0
                   Preliminary   inquiries opened                     0
                   Preliminary   inquiries closed                     0
                   Preliminary   inquiries converted to cases         0
                   Preliminary   inquiries pending 9/31/04            0

                   Total Judicial Actions                             1

                   Prosecutive Referral                               0
                   Prosecutive Declination                            0
                   Criminal Indictment                                0
                   Criminal Conviction                                0
                   Criminal Sentencing                                1
                   Time Probation                               36 Months
                   Court Ordered Fine                           $ 1,000.00
                   Court Ordered Restitution                    $17,484.95

                   Total Investigative Recoveries               $18,484.95




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   111
112   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                    APPENDIX 2: REPORTS ISSUED


Security

SIO-I-04-12         Security Inspection of Radio Free Europe/Radio                 09-04
                    Liberty Sites in Prague, Czech Republic



Inspections

IBO-I-04-05         Inspection of the International Broadcasting Bureau’s           07-04
                    Transmitting Station in Greece

IBO-I-04-06         Inspection of the Broadcasting Board of Governors’             08-04
                    Operations in Thailand

IBO-I-04-07         Inspection of the Broadcasting Board of Governors’             08-04
                    Operations in the Republic of South Africa

IBO-I-04-10         Inspection of the International Broadcasting Bureau’s          09-04
                    Transmitting Station in Germany

IBO-I-04-13         Inspection of the International Broadcasting Bureau’s          09-04
                    Djibouti Transmitting Station

IBO-I-04-14         Inspection of the Broadcasting Board of Governors’             09-04
                    Operations in China

IBO-I-04-15         The Broadcasting Board of Governors’ Operations in             09-04
                    the Czech Republic


Information Technology

IT-A-04-07          Review of the Information Security Program at the              09-04
                    Broadcasting Board of Governors




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   113
114   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
        APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
                                             RESOURCES

                                                   Table 1

                            INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                  WITH QUESTIONED COSTS


                                                         Number              Questioned               Unsupported
                                                        of Reports             Costs                     Costs
                                                                                    (Dollars in Thousands)
           A.      For which no management
                   decision has been made by
                   the commencement of the
                   reporting period                          0                      0


           B.      Which were issued during
                   the reporting period                      0                      0

                   Subtotals (A+B)                           0                      0

           C.      For which a management
                   decision was made during
                   the report period – based on
                   formal administrative or judicial
                   appeal
                   (i) dollar value or disallowed            0                      0
                   (ii) dollar value of costs                0                      0
                   not diallowed

           D.      For which no management
                   decision has been made by the
                   end of the reporting period               0                      0


                   Reports for which no
                   management decision was made
                   within 6 months of issuance               0                      0




       Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004    115
                                                     Table 2

                       INSPECTOR GENERAL ISSUED AUDIT REPORTS WITH
                   RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                Numbers                     Dollar Value
                                                               of Reports                  (in thousands)



         A. For which no management decision has
            been made by the commencement of the
            reporting period.                                   0                                  0

         B. Which were issued during the reporting
            period.                                              0                                 0

             Subtotals (A+B)                                     0                                 0

         C. For which a management decision was
            made during the reporting period.                    0                                 0

            (i) dollar value of recommendations that
            were agreed to by management
            –based on proposed management action                 0                                 0
            –based on proposed legislative action                0                                 0

            (ii) dollar value of recommendations
            that were not agreed to by management                0                                 0

         D. For which no management decision has
            been made by the end of the reporting
            period.                                              0                                 0

            Reports for which no management
            decision was made within 6 months
            of issuance.                                         0                                 0




116   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                        LIST OF ABBREVIATIONS


                           AF        Bureau of African Affairs
                        ATM          Automated teller machine
                        BBG          Broadcasting Board of Governors
                        BFSC         Bangkok Financial Service Center
                        CFSC         Charleston Financial Service Center
                         CIO         Chief Information Officer
                      CLASS          Consular Lookout and Support System
                         CPA         Coalition Provisional Authority
                        CTO          Chief Technical Officer
                        DCM          Deputy chief of mission
                 Department          Department of State
                           DS        Bureau of Diplomatic Security
                    DTS-PO           Diplomatic Telecommunications Service Program
                                     Office
                         EAP         Bureau of East Asian and Pacific Affairs
                        EEO          Equal Employment Opportunity Programs

                APPENDIX
                  AEIPG
                         2: 2: REPORTS          ISSUED
                         Embassy Interagency Planning Group
                    PPENDIX        REPORTS           ISSUED
                APPENDIX
                  FISMA
                APPENDIX 2:   R
                         Federal EPORTS
                                 Information
                         2: REPORTS ISSUED     I SSUED
                                              Security Management Act
                    FSN  Foreign Service national
                APPENDIX
                    FSO  2: REPORTS
                         Foreign               ISSUED
                                 Service office(r)
                        GSO          General Services Officer
                          IBB        International Broadcasting Bureau
                       ICASS         International Cooperative Administrative Support
                                     Services
                           IIP       Bureau of International Information Programs
                      INCSF          Iraqi National Congress Support Foundation
                         INL         Bureau of International Narcotics and Law
                                     Enforcement Affairs



Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   117
                                    IRI        International Republican Institute
APPENDIX 3: SAVINGS
                 IRM & M ORE
                       Bureau of E FFECTIVE
                                 Information       UManagement
                                             Resource SE OF RESOURCES
                                     IT        Information technology
                                   LES         Locally employed staff
                                 MFO           Multinational Force and Observers
                                  MPP          Mission Performance Plan
                                 NATI          North American Telecommunications, Inc.
                                  NEC          New Embassy Compound
                                   NIV         Nonimmigrant visa
                                 OBO           Bureau of Overseas Buildings Operations
                                  OIG          Office of Inspector General
                                 OMB           Office of Management and Budget
                             RFE/RL            Radio Free Europe/Radio Liberty
                                RFMS           Regional Financial Management System
                                 RIMC          Regional Information Management Center
                              RMPPO            Regional Marketing and Program Placement
                                               Office
                                   RSC         Regional Support Center
                                   SEP         Special Embassy Program
                                  SMA          Separate Maintenance Allowance
                               USAID           U.S. Agency for International Development
                             USIBWC            International Boundary and Water Commission,
                                               U.S. Section
                             USIBWC            International Boundary and Water Commissions’
                                               U.S. Section
                                  VAT          Value added tax
                                 VOA           Voice of America
                                   WR          World Relief




118   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
                          INDEX OF REPORTING REQUIREMENTS
                     INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT SUBJECT                                                          PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                        8
Section 5(a)(1)   Significant problems, abuses, and deficiencies             13-75, 95-105

Section 5(a)(2)   Significant recommendations for corrective action          13-75, 95-105

Section 5(a)(3)   Prior significant recommendations unimplemented            92

Section 5(a)(4)   Matters referred to prosecutive authorities                83-84, 105

Section 5(a)(5)   Information or assistance refused                          none

Section 5(a)(6)   List of reports issued                                     85-90, 109

Section 5(a)(7)   Summaries of significant reports                           13-75, 95-105

Section 5(a)(8)   Audit reports–questioned costs                             93, 115

Section 5(a)(9)   Audit reports–funds to be put to better use                94, 116

Section 5(a)(10) Prior audit reports unresolved                              94, 95

Section 5(a)(11) Significant revised management decisions                    none

Section 5(a)(12) Significant management decisions with which
                 OIG disagreed                                               none




Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004   119
122   Office of Inspector General Semiannual Report to the Congress, April 1, 2004 to September 30, 2004
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
        of Federal programs and resources
                 hurts everyone.

       Call the Office of Inspector General
                   HOTLINE
                    202/647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219

       Please visit our website at oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
             to ensure confidentiality.
